<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                       WEDNESDAY, APRIL 20, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:31 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) of the 
subcommittee, presiding.
    Present: Senators Cochran, Shelby, Blunt, Daines, Moran, 
Durbin, Tester, and Schatz.

                         DEPARTMENT OF DEFENSE

                    Defense Innovation and Research

STATEMENT OF FRANK KENDALL, UNDER SECRETARY OF DEFENSE 
            FOR ACQUISITION, TECHNOLOGY AND LOGISTICS


               opening statement of senator thad cochran


    Senator Cochran. The subcommittee will come to order.
    We want to welcome our panel of witnesses today to our 
hearing on the budget request for defense appropriations on the 
fiscal year 2017 defense innovation and research budget 
request. We appreciate very much the attendance of our panel, 
others who are here today, and members of our committee.
    We are specifically pleased to welcome Mr. Frank Kendall, 
Under Secretary of Defense for Acquisition, Technology and 
Logistics; Mr. Stephen Welby, Assistant Secretary of Defense 
for Development, Research and Engineering; and Dr. Arati 
Prabhakar, Director of Defense Advanced Research Projects 
Agency, or DARPA.
    Today, we look forward to learning more about the science 
and technology investments proposed in the fiscal year 2017 
budget. This subcommittee has been a strong advocate of science 
and technology investments and has ensured funding to make 
certain our Nation can maintain its role as the world's leader 
in technology and innovation.
    We want to continue to receive input from experts at the 
Department of Defense, so they can inform committee action as 
we do our work.
    We appreciate your joining us today to testify as our 
committee continues to evaluate the budget request.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    The hearing will come to order. We welcome our panel of witnesses 
today to a hearing on the fiscal year 2017 budget request for Defense 
Innovation and Research. We are specifically pleased to welcome: Mr. 
Frank Kendall, Under Secretary of Defense for Acquisition, Technology 
and Logistics; Mr. Stephen Welby, Assistant Secretary of Defense for 
Development, Research and Engineering; and Dr. Arati Prabhakar, 
Director of the Defense Advanced Research Projects Agency.
    Today, we look forward to learning more about the science and 
technology investments proposed in the fiscal year 2017 budget.
    This subcommittee has been a strong advocate of science and 
technology investments and has ensured funding to make certain our 
Nation can maintain its role as the world's leader in technology and 
innovation. We want to continue to receive input from experts at the 
Department of Defense so they can inform Committee action as we do our 
work.
    We appreciate your jointing us today to testify as our committee 
continues to evaluate the budget request.
    Now I will turn to the Vice Chairman, Senator Durbin, for his 
opening remarks.

    Senator Cochran. I am pleased to yield to the distinguished 
Vice Chairman of the subcommittee, Senator Durbin, for any 
remarks.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Thanks, Mr. Chairman. I am pleased to join 
you in welcoming our witnesses to discuss defense innovation 
and research.
    Thanks to Mr. Kendall, Mr. Welby, and Dr. Prabhakar for 
their testimony. We are looking forward to hearing from our 
witnesses on innovations the department is undertaking.
    I am very concerned with the state of our Federal 
investment in research and development. We have gone from a 
high watermark of 17 percent of the discretionary budget for 
research and development to 9 percent. From the 1960s through 
the 1980s, Federal spending on research and development (R&D) 
averaged 1.52 percent of gross domestic product (GDP). Now, 
0.08 percent. So we have seen a steady decline that has led to 
a cumulative $1.5 trillion research investment deficit.
    What are we thinking? While our investments are on the 
decline in the United States, other nations are surging ahead. 
China has increased funding, and R&D is on track to surpass the 
United States in research and development in a little over 5 
years.
    I sponsored two bills to reverse the innovation deficit, 
the American Cures Act, the American Innovation Act. The Cures 
Act would increase medical research for National Institutes of 
Health (NIH), Centers for Disease Control (CDC), Department of 
Defense, and Veterans Affairs (VA) at the rate of GDP inflation 
plus 5 percent a year. Similarly, the American Innovation Act 
would set science and technology funding at the rate of 
inflation plus 5 percent for the Department of Energy, the 
Department of Defense, National Science Foundation, National 
Aeronautics and Space Administration (NASA), and National 
Institute of Standards and Technology (NIST).
    Let me go out on a limb and say, if we did this 5 percent 
real growth in research and development for 10 straight years, 
America would light up the scoreboard. We would repay over and 
over again the cost of so many things that we are enduring 
today, hopelessly enduring, because of the lack of research.
    Last year, with the support of my colleagues, this 
subcommittee increased medical research in the Defense 
Department by 5 percent in real growth terms. I thank the 
chairman. He has been a real leader on this.
    We also added $220 million to defense basic research last 
year, bringing the defense science and technology (S&T) funding 
to a total of nearly $13 billion. That is an increase of $950 
million and a real increase of just over 5 percent.
    I am hoping to hear from our witnesses about any technology 
deficits and the challenges we face.
    Secretary Carter has introduced new ways to push innovation 
into Defense R&D, such as a new partnership with In-Q-Tel. 
These are promising initiatives, but our challenge is both to 
see how they pay off and to keep making innovation a priority.
    I have given a lot of speeches about research and 
innovation. The last point I want to make is advice from a man 
named Jack Valenti. Some of you remember Jack Valenti. He 
worked for President Lyndon Johnson, headed up the motion 
picture alliance. He said every good speech includes six words, 
``Let me tell you a story.''
    You need to tell us a story, a story we can share with 
everyone, about how this investment of taxpayer dollars makes 
us a better Nation, makes us safer, and continues to keep 
America in the lead.
    We look forward to your testimony.
    Senator Cochran. Thank you, Senator.
    Let me call our witnesses to the table.
    We welcome you, Mr. Frank Kendall, Under Secretary of 
Defense for Acquisition Technology and Logistics; Mr. Stephen 
Welby, Secretary of Defense for Research and Engineering; Dr. 
Arati Prabhakar, Director of Defense Advanced Research Projects 
Agency.
    We appreciate very much you being here today and the work 
you have assumed responsibility for in our government.
    So let's proceed.

                   SUMMARY STATEMENT OF FRANK KENDALL

    Mr. Kendall. Thank you, Mr. Chairman. Chairman Cochran, 
Vice Chairman Durbin, distinguished members of the committee, 
we appreciate the opportunity to testify today.
    Mr. Chairman, I would like to ask that our written 
testimony be admitted to the record.
    Senator Cochran. Without objection, it's so ordered.
    Mr. Kendall. Thank you, sir.
    Scientists and engineers from across the department's 
research and development organizations work hard every day to 
advance our Nation's defense technologies.
    The department's current focus on innovation is much 
broader than just innovation and technology. However, our 
emphasis on innovation reflects our belief that we must do 
everything we can to maintain our military technological 
superiority.
    Technological superiority isn't just about technology. 
Military superiority directly correlates with innovation in 
operational concepts and organizational constructs. It 
correlates with all the things we do to be efficient and 
productive in every aspect of the defense enterprise, from 
human resources management to the use of information 
technology. We depend on innovation for a healthy and robust 
industrial base, stable and adequate budgets, sound technology 
investment decisions, and an effective defensive acquisition 
system.
    We look forward to the opportunity to discuss the 
department's progress in each of these areas and our roles in 
leading and managing the Department of Defense innovation 
efforts.
    In the areas of acquisition, technology, and logistics, for 
which I am responsible, we have for the last several years 
undertaken a program of continuous improvement anchored by 
three successive iterations of better buying power initiatives, 
the most recent of which is focused on innovation and technical 
excellence.
    The department as a whole has been pursuing innovation 
across-the-board under the Defense Innovation Initiative 
originally announced by Secretary Hagel and endorsed by 
Secretary Carter.
    Secretary Carter has introduced the Force of the Future 
human resource initiatives, which are intended to provide 
innovative approaches to more effective recruiting and 
retention, particularly in high-demand specialties like cyber 
and information technology.
    Secretary Carter has emphasized the department's efforts to 
accelerate the transition of technology from commercial 
nontraditional sources into Department of Defense (DOD) through 
the Defense Innovation Unit--Experimental, or DIUx, which was 
established last year. DIUx also serves as a vehicle to 
facilitate relationships and tap into sources of intellectual 
capital from across the country.
    In addition, the Secretary is establishing a defense 
innovation board composed of leading experts in commercial 
management and technology.
    Under leadership of Deputy Secretary Work, the department 
has been investigating opportunities for a third offset 
strategy that would provide an enduring operational advantage 
and strengthen conventional deterrence through the application 
of emerging technologies and novel operational concepts.
    All of these efforts are integral parts of a larger whole, 
which is focused on bringing more innovation into the 
Department of Defense.
    Why is there such an increased focus on innovation? The 
reason is the growing recognition that the United States' 
longstanding military technological superiority is being 
challenged by peer or near-peer competitors in a way that we 
have not seen since the Cold War.
    Controlling costs and increasing efficiency and 
productivity are always important, and the department remains 
focused on improvements in these areas.
    Our first responsibility, however, remains to ensure the 
United States has and will continue to have dominant military 
capabilities relative to any potential adversary.
    I am deeply concerned about the adverse trends in 
maintaining U.S. military technological superiority. I have 
testified about that before to this committee.
    The department-wide focus on innovation, technical 
excellence, and acquisition process improvement is intended to 
help sustain our long-term competitive advantage and make the 
most effective use of the resources provided by the Congress.
    The Department's ability to maintain the Nation's 
technological superiority for the 21st century depends on the 
research and devolvement investments reflected in our budget 
request. We were able to increase our research and development 
request in the PB-17 budget by about $3 billion over the 
previous year's appropriation level.
    This budget increases the use of prototyping, 
demonstrations, and experimentation to help the department more 
rapidly mature technology and to assess the impact these 
innovative technologies can have on our future force.
    Our investments create options for future investments in 
full-scale development and production. We will have to rely on 
the Congress and the work of this committee and others to 
remove the threat of sequestration and provide the next 
administration with the resources that will be needed to place 
these innovative technologies into the hands of our 
warfighters.
    The challenge to our Nation's technological superiority is 
not a tomorrow problem. It is here today. The department 
remains committed to ensure our military is prepared for any 
future conflict, and we are committed to work closely with 
Congress on innovative capabilities to preserve our technology 
edge.
    We are confident that the initiatives being pursued on the 
department's various innovation efforts, including a research 
and development strategy reflected in the President's budget 
submission and DARPA's efforts to help shape our technological 
future, will all position the department for an increasingly 
competitive national security environment.
    Let me close by thanking the committee for its strong 
support of the department's efforts, as the people we lead work 
to discover, design, and deliver the technological capabilities 
our warfighters need in order to protect the Nation.
    Thank you.
    [The statement follows:]
   Prepared Statement of Hon. Frank Kendall, Hon. Stephen Welby and 
                          Dr. Arati Prabhakar
    Chairman Cochran, Vice Chairman Durbin and distinguished members of 
the subcommittee, we appreciate the opportunity to testify today. I am 
joined here by Mr. Stephen Welby, Assistant Secretary for Research and 
Engineering; and Dr. Arati Prabhakar, Director of the Defense Advanced 
Research Projects Agency. Scientists and engineers from across the 
department's Research and Development (R&D) organizations work very 
hard every day to advance our Nation's defense technologies. The 
Department's current focus on technical innovation reflects our belief 
that maintaining our technological superiority is critical to the 
future security of the United States and our allies. Our technological 
superiority directly correlates with a healthy and robust industrial 
base, stable and adequate budgets, sound technology investment 
decisions, and an effective defense acquisition system. We look forward 
to the opportunity to discuss the Department's progress in each of 
these areas, and our roles in leading and managing the Department of 
Defense (DOD) Technology Innovation efforts.
    This written testimony includes a summary of the continuous 
improvement being made across the Defense Acquisition enterprise under 
the Better Buying Power 3.0 initiatives, which are focused on 
innovation and technical excellence. We also provide an overview of the 
Research, Development, Technology and Engineering (RDT&E) investments 
promulgated by the Assistant Secretary for Research and Engineering 
(ASD(R&E)), and a short summary of many of the programs being pursued 
by the Director, Defense Advanced Research Projects Agency (DARPA). All 
of these efforts are integral parts of a larger whole and contribute to 
the Defense Innovation Initiative, which was originally announced in 
2014 by Secretary Hagel, and which has been expanded upon and 
strengthened by Secretary Carter and Deputy Secretary Work through 
initiatives such as ``Force of the Future'' and ``The Third Offset 
Strategy.''
    We would like to begin, however, by discussing the reason it is so 
crucial for our acquisition system to be more effective in addressing 
emerging asymmetric challenges: the risk that the United States faces 
today of losing its advantage in military technological superiority 
when measured against our Nation's potential adversaries. Our first 
responsibility is to ensure the United States has, and will continue to 
have, dominant military capabilities relative to any potential 
adversary. We are deeply concerned about the adverse trends in 
maintaining U.S. military technological superiority. The department-
wide focus on innovation, technical excellence, and acquisition process 
improvement are intended to help sustain our long-term competitive 
advantage and make most effective use of the resources provided by the 
Congress.
    challenges to preserving u.s. military technological superiority
    The United States and our allies have long enjoyed a military 
capability advantage over any potential adversary. The military's 
capabilities in precision strike weapons, stealth, wide area 
surveillance, and networked forces emerged from what Deputy Secretary 
Work has described as the second ``technology offset strategy.'' This 
mix of capabilities was originally designed to counter the overwhelming 
quantitative advantage possessed by Warsaw Pact mechanized forces. It 
proved decisive when first deployed in the First Gulf War in 1991. The 
United States has had great success with this suite of capabilities; 
but the contest is never one-sided, and any military advantages that 
depend on specific technologies is inevitably temporary. The 
globalization technology in general and the increasing ability of 
potential adversaries to invest in military modernization have in part 
leveled the playing field. Potential adversaries have taken advantage 
of fast-moving broadly available commercial technology--as well as on 
technology often acquired through cyber theft and espionage. Potential 
adversaries have also carefully studied the American way of war to 
identify weaknesses and vulnerabilities to exploit.
    No nation paid more attention to the technologies and operational 
concepts used by the United States in the First Gulf War than China. 
Our intelligence estimates in the early 1990s suggested that, while 
China might be a concern in the future because of its accelerating 
economic growth, it would take 15 to 20 years for China to become a 
peer competitor. It is now 20 years later and the intelligence 
estimates were accurate. China has developed and fielded a number of 
advanced weapons designed to defeat U.S. power projection forces. Many 
more are in development. These systems include a range of capabilities, 
but foremost among them are accurate and sophisticated cruise and 
ballistic missiles designed to attack high value assets, specifically 
the aircraft carriers and forward bases that the United States depends 
on for power projection. These weapons fielded in large numbers and 
coupled with advanced electronic warfare (EW) systems, modern air-to-
air missiles, extensive counter-space capabilities, improved undersea 
warfare capabilities, fifth generation fighters, and offensive cyber 
weapons, pose a growing and serious threat to U.S. and allied power 
projection forces.
    China is not the only nation of concern. Russia is fielding or 
developing advanced systems including highly effective air defense 
systems, fifth generation fighters, land and surface ship attack cruise 
missiles, state-of-the art submarines, electronic warfare and cyber 
weapons. Russian doctrine, organization, and equipment are also turning 
toward a greater reliance on tactical nuclear weapons--a disturbing 
trend. Recent operations in Syria have demonstrated the effectiveness 
of Russian modernization efforts, enabling Russia to conduct U.S.-style 
power projection operations with precision weapons and sophisticated 
airborne capabilities. All of these modernization investments are 
targeted at challenging our ability to project power to deter 
aggression, enforce international norms and defend U.S. and allied 
interests. Proliferation of these capabilities to states such as Iran 
and North Korea also poses a national security risk for the United 
States and our friends and allies.
    To be clear, we do not anticipate or foresee a military conflict 
with China or Russia. That would not be in anyone's interest. However, 
we also never want the United States to be in a situation of 
inferiority or even parity with respect to conventional military power. 
Regional rivalries and security dilemmas would compound, and the 
possibility of a conflict due to a miscalculation would increase. In 
addition, weapons developed by more capable powers will inevitably 
proliferate to more likely opponents. Iran, for example, is known to be 
acquiring precision missile capabilities that threaten our forces in 
the Persian Gulf as well as our allies and friends in the region.
         defense strategy requires focus on future technologies
    Future capabilities will be joint in nature and leverage the 
ability to rapidly synchronize simultaneous operations conducted in the 
space, air, sea, undersea, ground, and cyber domains using manned and 
unmanned systems. Emerging tools based on breakthroughs in artificial 
intelligence, autonomy, computer science, advanced electronics, 
communications systems, sensors, and other fields will enable new 
operational concepts. These concepts will support faster and more 
effective decisionmaking, enable improved coordination of operations 
across warfighting domains, support the use of collaborative teams of 
manned and unmanned systems, and integrate electronic warfare and cyber 
operations. When fielded, these capabilities are intended to provide a 
``Third Offset Strategy'' that will enable our forces to operate from 
longer ranges, with less risk to our servicemen and women, and with 
much higher relative effectiveness against emerging threats than 
current systems.
                   critical investments in our future
    To address these challenges, and to support the technology needs of 
the current force, the President's fiscal year 2017 budget submission 
continues to demonstrate strong support for sustaining a robust DOD 
Science and Technology (S&T) investment. The chart below depicts DOD 
funding over the last decade and as proposed in the current budget 
submission over the Future Year Defense Program.
    [The chart follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    As evidence of this commitment to a strong DOD S&T capability and 
capacity, the fiscal year 2017 budget request for S&T is $12.5 billion, 
1.9 percent above the fiscal year 2016 budget request and 2.4 percent 
of the Defense topline ($524 billion). In real terms, the fiscal year 
2017 S&T budget request is 25 percent higher than the fiscal year 2000 
budget request of $9.8 billion. The table below details the proposed 
DOD S&T budget by year and breaks out investment by budget category and 
by S&T account.
    [The table follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The Department's fiscal year 2017 S&T budget request is aligned 
with DOD priorities and supports increased focused investments on the 
technology development and demonstration required to prepare the 
Department for an increasingly competitive global security environment. 
The fiscal year 2017 S&T budget request includes:
  --$2.102 billion in Basic Research investment, which is an increase 
        of $12.9 million from the Fiscal Year 2016 budget request. Much 
        of this investment supports the Department's engagement with 
        academic institutions in the foundational research efforts that 
        drive future innovation.
  --$4.815 billion in Applied Research investment, which is an increase 
        of $102.2 million from the fiscal year 2016 budget request.
  --$5.584 billion in Advanced Technology Development investment, which 
        is an increase of $119.3 million from the fiscal year 2016 
        budget request. This additional investment provides for 
        increased emphasis on prototyping and experimentation to reduce 
        program risk.
     driving value to the warfighter through science and technology
    Over the last year we have continued to make progress strengthening 
both our internal capabilities and our connections to external 
innovation centers. Key activities of note from 2015 include:
  --In 2015, the Department continued to focus efforts on developing 
        advanced capabilities to address emerging electronic warfare 
        (EW) challenges, to evaluate these capabilities, and to mature 
        them for future operational adoption. One example of these 
        efforts is the successful Vigilant Hammer experimentation 
        campaign. Vigilant Hammer provided a cost effective, joint 
        opportunity to explore and assess U.S. emerging capabilities to 
        fight in a complex, congested, and agile electromagnetic 
        spectrum. Vigilant Hammer provided the S&T community with 
        unprecedented access to the representative dense signal 
        environment in which U.S. systems will operate in the future.
  --Navy-funded research delivered a Solid State Laser to the USS Ponce 
        last year, successfully demonstrating destruction of surface 
        and air targets by a directed energy weapon operating in the 
        maritime environment. Leveraging the lessons learned from this 
        operational demonstration, we are moving forward to mature the 
        technology required to deploy a 150 kilowatt laser on future 
        Navy platforms. Additionally, we will continue our ground 
        combat laser research work with the Marine Corps Ground-Based 
        Air Defense On-the-Move (GBAD) system, which is a vehicle-
        based, high-energy laser for the 21st century Marine. Directed 
        energy will enable our naval forces to fight at the speed of 
        light.
  --Naval Tactical Cloud research is providing the framework and large-
        data analytics support for Navy platform cyber defense 
        solutions such as the Resilient Hull, Mechanical, and 
        Electrical Security system (RHIMES). RHIMES is a cyber-
        protection system designed to make shipboard mechanical and 
        electrical control systems resilient to cyber-attacks. This 
        technology is a critical warfighting enabler, ensuring assured 
        access to critical information by keeping our Navy and Marine 
        Corps ``cyber doors locked.''
  --R&D is driving the state of the art in autonomy continues to extend 
        Naval capability in new ways. Later this year, the Navy plans 
        to demonstrate an at-sea capability of our Low-Cost Unmanned 
        Aerial Vehicle (UAV) Swarming Technology (LOCUST) to launch, 
        form, control and task 30 small UAVs in an offensive swarm. The 
        Navy will also take the next step in undersea autonomy, 
        conducting a long endurance submerged transit test of our 
        hybrid fuel cell powered Large Diameter Unmanned Underwater 
        Vehicle (LDUUV).
  --Using its Rapid Innovation Process, the Air Force Research 
        Laboratory recently developed and deployed the Long Endurance 
        Aerial Platform (LEAP). LEAP provides a revolutionary, low-
        cost, low acoustic signature, persistent aerial ISR capability 
        to address Combatant Command and U.S. Special Forces ISR gaps 
        by converting a proven, fuel-efficient Light Sport Aircraft 
        into an Unmanned Aerial System. The Air Force Research 
        Laboratory completed the development and flight testing of the 
        Spiral II design, which has a takeoff weight of 1,650 pounds 
        with endurance of more than 30 hours, and carries a beyond-
        line-of-sight satellite communications, command and control 
        data relay along with day/night imaging full motion video and 
        radio direction finding payloads. Based on its successful 
        testing, U.S. Special Operations Command requested, and the 
        Office of the Under Secretary of Defense for Intelligence 
        funded, an operational evaluation of the system in the U.S. 
        Central Command (CENTCOM) theater of operations. In a very 
        short period of time, the Laboratory procured the hardware for 
        a complete system of four air vehicles and has deployed them to 
        the field.
  --The Air Force S&T Program is also working to harness new technology 
        to demonstrate that new, advanced capabilities can be rapidly 
        delivered in a cost effective manner. For example, the Low Cost 
        Attritable Aircraft Technology (LCAAT) program is leveraging 
        recent developments in advanced manufacturing, such as 3D 
        printing, to rapidly design, build, and field near-term 
        expendable or limited-life unmanned air platforms as single 
        assets or in autonomous or manned/unmanned teams to detect, 
        deny, and/or disrupt the enemy. This approach bends the cost 
        curve in our favor by enabling the United States to deploy 
        weapons systems to destroy or degrade the systems of our 
        adversaries and protect those of our armed forces and of our 
        allies at a small fraction of the cost of current manned and 
        re-usable systems. The low-cost attritable aircraft will 
        provide an A2/AD operations capable system, and offer near-term 
        ISR/strike capability in remote regions where forward basing is 
        difficult or prohibited.
  --With an increasingly adaptive enemy, one who has watched how the 
        U.S. fights for the past 15 years, it is imperative for us to 
        understand our own technology and system vulnerabilities--those 
        aspects that could be exploited and used against us. The Army 
        S&T Enterprise has embraced this challenge. A key aspect of the 
        Army's initiative is the use of S&T red teaming--challenging 
        our systems with an emulated enemy, one who can employ 
        innovative and adaptive methods to disrupt our planned 
        capability. These efforts have the potential for significant 
        cost savings, as they permit potential future vulnerabilities 
        to be identified, evaluated and mitigated long before system 
        designs are finalized or systems are fielded.
  --The Army S&T community continues to pursue technologies that are 
        clustered under the category materials-by-design. This research 
        changes the paradigm of material science by providing the 
        capability to select and create material properties and 
        responses, essentially building new materials from the atom up. 
        The ability to manipulate matter at any scale and create 
        desired properties across a wide range of material classes 
        (structural, electronic, energetic) can reduce the time of 
        materials-based discovery to capability delivery by half and at 
        a fraction of the cost of what it is today. The result is a 
        materials-by-design capability for ballistic protection, 
        energetic materials and electronic materials, built using a 
        multiscale approach heavily leveraging computational materials 
        science. The ability to design material properties can lead to 
        specialized capabilities such as high energy disruptive 
        explosives with three to 10 times more energy than a current 
        explosive (RDX) at a lower cost.
  --The Army S&T Degraded Visual Environment Mitigation (DVE-M) effort 
        addresses the risk of loss of vertical lift aircraft and risk 
        of occupant injury and death due to loss of situational 
        awareness under degraded visual environments. These 
        environments include aircraft induced effects such as 
        ``brownout'' and ``whiteout'' (the blowing of sand/snow due to 
        the rotor wash as the pilots come in for a landing), and 
        environmental effects that impair visibility such as snow, 
        rain, fog, and darkness. The Army is pursuing a multi-
        disciplined approach to identifying and integrating 
        technologies to support operations into DVE-developing and 
        evaluating novel sensors, flight controls, cueing (visual, 
        aural, and tactile) and real-time computing environments. The 
        Army's DVE-M strategy will demonstrate these technologies in 
        increasingly complex environments, culminating in a 
        demonstration of 360-degree situational awareness throughout 
        the flight envelope of vertical lift systems. The application 
        of this technology will provide a game-changing capability that 
        may rival the impact of the introduction of night vision 
        capability into the operational forces.
    In order to ensure we remain at the forefront of S&T, we must also 
be connected to the global community by continuing to forge 
relationships with our international partners. The DOD S&T community 
continues to engage globally with allies and partners, and with key 
academic and technology institutions worldwide. Among our global 
engagements, we continue to support multilateral S&T cooperation 
through the NATO alliance and through The Technical Cooperation Program 
(TTCP) with the United Kingdom (U.K.), Canada, Australia and New 
Zealand. The Department continues productive bilateral S&T cooperation, 
and in the last few weeks has concluded annual reviews of ongoing 
collaborative S&T efforts with a number of partner nations. As an 
example of the benefits of the cooperation, the U.S./U.K. Multi-
disciplinary University Initiative (MURI) effort supports projects that 
are competitively selected with DOD supporting U.S. Academic 
institutions and the U.K. Ministry of Defense (MoD) supporting U.K. 
researchers who then collaborate in areas of mutual U.S. DOD and U.K. 
MoD interest. We have also continued to focus on strengthening U.S.-
India defense cooperation. Over the past year, the Assistant Secretary 
of Defense for Research and Engineering (ASD(R&E)) has sponsored five 
workshops with India covering a wide range mutual interest areas: 
cognitive sciences, autonomy, directed energy, materials, and munitions 
(including counter-improvised explosive devices). Over 30 potential S&T 
projects from these workshops are currently under consideration for co-
development.
    As we execute our plans for the rest of this fiscal year and into 
fiscal year 2017, ASD(R&E) continues to provide oversight of the 
Department's comprehensive S&T investment portfolio through the 
Reliance 21 framework. Reliance 21 provides a forum to synchronize, 
coordinate, and deconflict Service and Agency S&T activities. In the 
last year, we improved joint planning and coordination of S&T 
activities among the Department's senior S&T leadership to achieve 
efficiencies and improve the effectiveness of our support to the 
Operating Force. This collaborative process captures the interests and 
activities of the entire R&E enterprise in a collection of 17 
Communities of Interest (COIs). The COIs maintain awareness of their 
respective portfolio areas by reviewing and assessing the alignment of 
current and planned R&E programs, identifying gaps, and helping to 
prioritize R&E funding efforts to meet the technical challenges of the 
DOD in their respective portfolio areas. Each Reliance 21 COI 
represents specific cross-domain technology areas with a rotating 
steering group lead and draws upon subject-matter experts from across 
the Department working in the relevant technology area. The Reliance 21 
framework, its S&T Executive Committee, and technology area COIs are 
key mechanisms that support ASD(R&E) integrated oversight of the 
Department's S&T investments.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


     darpa's role in driving disruptive innovation and preventing 
                         technological surprise
    For nearly six decades, DARPA has played a particular role in this 
community of government innovators, and in the larger U.S. technology 
ecosystem: to pursue extremely challenging but potentially paradigm-
shifting technologies in support of national security. Today DARPA 
continues to create the technologies needed to offset the advanced 
threats that our military and our Nation will face in the years ahead, 
and to develop the next generation of advanced military capabilities to 
deter and if necessary defeat highly sophisticated adversaries.
    The agency's current strategic framework and descriptions of our 
major areas of investment are outlined in ``Breakthrough Technologies 
for National Security,'' which also describes DARPA's approaches to 
ensuring that advances are successfully transitioned to the military 
Services, commercial enterprises or other research entities for further 
development in ways that best serve U.S. national interests. DARPA's 
portfolio of more than 200 active programs can be aligned around three 
major investment areas: Rethinking Complex Military Systems, Mastering 
the Information Explosion, and Nurturing the Seeds of Technological 
Surprise. These programs can be further grouped by technological 
maturity: those capabilities that are already being piloted or used 
(``Adoption and Impact''), those that are currently in development 
(``Technical Progress''), and those that represent fresh investment 
directions (``New Opportunities'').
    The small subset of these programs discussed below provides a sense 
of the nature and mix of these investments.
     darpa's efforts focused on rethinking complex military systems
    The unparalleled technological capability that has enabled U.S. 
military and security superiority comes with a price: spiraling 
increases in complexity. Today, many high-end military platforms are so 
complex they take decades to produce and years to upgrade. In a world 
in which pace is inexorably increasing, and in which other economic and 
manufacturing sectors have recognized the benefits of systems 
modularity, rapid-fire iterative improvements and faster hardware- and 
software-system upgrades, the military's current approach to managing 
complexity is inadequate. It risks leaving the United States vulnerable 
to adversaries developing more nimble means of adopting technology.
    Today DARPA is turning the tables on complexity, creating 
engineering architectures and approaches that deliver significantly 
greater combat power, but with a technical elegance that also allows 
for flexibility in the field and fast upgrades.
    Representative programs in this area include:
  --Cognitive Electronic Warfare (EW) (Maturity: Adoption and 
        Impact).--DARPA's Advanced RF Countermeasures (ARC) and 
        Behavioral Learning for Adaptive Electronic Warfare (BLADE) 
        programs are investing in the technologies needed to rapidly 
        react to dynamic electromagnetic spectrum signals from 
        adversary radar and communications systems. These programs are 
        applying machine learning--computer algorithms that can learn 
        from and make predictions from data--to react in real time and 
        jam signals, including new signals that have not yet been 
        cataloged. DARPA is working with the Services to transition 
        technologies derived from the field of cognitive electronic 
        warfare into the F-18, F- 35, Army Multi-Function EW program, 
        and Next Generation Jammer.
  --Unmanned Surface Vessel for Long-Duration Missions (Maturity: 
        Technical Progress).--The Anti-Submarine Warfare (ASW) 
        Continuous Trail Unmanned Vessel (ACTUV) program has designed, 
        developed and constructed an entirely new class of ocean-going 
        vessel--one able to traverse the open seas for months and over 
        thousands of kilometers without a single crew member aboard. 
        The 130-foot ship, now known as Sea Hunter, is designed to 
        robustly track quiet diesel electric submarines. But of broader 
        technical significance, it embodies breakthroughs in autonomous 
        navigational capabilities with the potential to change the 
        nature of U.S. maritime operations. Specifically, ACTUV is 
        endowed with advanced software and hardware that enables full 
        compliance with maritime laws and conventions for safe 
        navigation--including international regulations for preventing 
        collisions at sea, or COLREGS--while operating at a fraction of 
        the cost of manned vessels that are today deployed for similar 
        missions. ACTUV was recently transferred to water at its 
        construction site in Portland, Oregon. It was christened on 
        April 7, 2016, with open-water testing scheduled to begin this 
        summer off the California coast.
  --Space Robotics and Modular Systems at Geosynchronous Orbit 
        (Maturity: Technical Progress).--DARPA's Phoenix program is 
        developing innovative technologies and systems that will make 
        it possible to reimagine operations in geosynchronous Earth 
        orbit (GEO), 35,000 kilometers above the Earth. This is the 
        orbit where the highest priority military satellites operate, 
        and commercial satellites there generate more than $100 billion 
        annually in revenue. DARPA is developing a variety of space 
        robotics technologies, including assembly, repair, asset life 
        extension and refueling in the harsh GEO environment; low-cost 
        modular satellite architectures that can scale almost 
        infinitely; and a standardized payload orbital delivery (POD) 
        mechanism designed to safely carry a wide variety of separable 
        mass elements to orbit-- including payloads, satlets and 
        electronics--aboard commercial communications satellites. 
        Phoenix has now ground tested the world's first modular 
        satellite, called eXCITe, and prepared it for launch in 2016. 
        In addition, a prototype of a POD mechanism to deliver low-cost 
        rideshare to GEO has also been constructed and is being readied 
        for launch in mid-2017.
     darpa's efforts focused on mastering the information explosion
    The accelerating growth of digital data, and the Nation's 
increasing reliance on information systems in every sector of society, 
present a challenge and an opportunity. The opportunity is to derive 
from this massive trove the myriad associations and causalities that, 
once unveiled, can provide insights into everything from the predicted 
arrival of a new strain of influenza to the plans for a terror attack 
halfway around the globe. The challenge is how to separate these 
valuable signals from noise, and how to be able to trust the 
information and information systems upon which we now rely for 
virtually every function.
    DARPA is developing novel approaches to deriving insights from a 
wide variety of datasets, and is developing technologies to ensure that 
the data and systems with which critical decisions are made are 
trustworthy.
    Representative programs in this area include:
  --Research on Fresh Approaches for Computer Security (Maturity: 
        Adoption and Impact).--DARPA's Clean-slate design of Resilient, 
        Adaptive, Secure Hosts (CRASH) program was a basic research 
        effort that designed new computer systems that are highly 
        resistant to cyberattack. The technology development has 
        recently concluded, and CRASH-developed software is now being 
        incorporated in the commercial and military arenas. One 
        university performer started a company based on CRASH research; 
        this led to an announcement from HP in September 2015 that its 
        new line of printers would feature this software to enhance 
        their security. DARPA is coordinating transitions to the Navy 
        and the Defense Information Systems Agency (DISA). For example, 
        the aforementioned software is now being transitioned to the 
        Naval Surface Warfare Center to protect shipboard control 
        systems from cyberattack, and other CRASH software is being 
        transitioned to offer similar protection for DOD command and 
        control servers. Additionally, the Department of Homeland 
        Security and the Air Force Research Laboratory have been 
        working together to test and evaluate CRASH technology in 
        multiple devices. Because the cyberattack surface is vast and 
        diverse, each of these transitions makes a contribution to the 
        Nation's cybersecurity by taking a class of threats off the 
        table.
  --Cyber Grand Challenge (CGC) (Maturity: Technical Progress).--It 
        typically takes months or years for a software bug to be 
        identified and patched--a period of time increasingly being 
        taken advantage of by digital miscreants, and a vulnerability 
        window not likely to shrink as long as the process for 
        identifying and repairing such flaws remains mostly manual and 
        artisanal as it is today. CGC is a DARPA-sponsored competition 
        that aims to accelerate the development of automatic defensive 
        systems capable of reasoning about flaws, formulating patches, 
        and deploying them on a network in real time. By acting at 
        machine speed and scale, these technologies may someday 
        overturn today's attacker-dominated status quo. Seven teams 
        from across the United States qualified last year to compete in 
        the CGC final event, which will take place live on stage, co- 
        located with the DEF CON 24 conference in Las Vegas on August 
        4, 2016.
  --Communicating with Computers (Maturity: New Opportunities).--A new 
        and powerful wave of artificial intelligence (AI) is sweeping 
        commercial and military applications today. Based on recent 
        major advances in machine learning-- research that was 
        sponsored in part by DARPA--this generation of AI is fueling 
        fields as disparate as search, self-driving cars and financial 
        trading in the commercial world and battle management, 
        electronic warfare, cybersecurity and information operations in 
        the national security realm. Despite this significant technical 
        progress, however, the ways in which humans interact with 
        machine systems are still quite limited compared to human-to-
        human interactions. DARPA's Communicating with Computers (CwC) 
        program is a basic research effort to explore how to facilitate 
        faster, more seamless and intuitive communication between 
        people and computers--including how computers endowed with 
        visual or other sensory systems might learn to take better 
        advantage of the myriad ways in which humans use contextual 
        knowledge (gestures and facial expressions or other syntactical 
        clues, for example) to enrich communication. Ultimately, 
        advances from this program could allow warfighters, analysts, 
        logistics personnel and others in the national security 
        community to take fuller advantage of the enormous 
        opportunities for human-machine collaboration that are emerging 
        today.
    darpa's efforts focused on nurturing the seeds of technological 
                                surprise
    From its earliest days, DARPA has scoured the research community 
for new science and engineering insights and invested in programs to 
reveal radically advanced technological capabilities from those fertile 
research areas. That tradition holds true today.
  --Accurate, Specific Disease Diagnostics on the Spot (Maturity: 
        Adoption and Impact).--The challenge of tracking the spread of 
        infectious disease is exacerbated by the fact that the only way 
        to know precisely which pathogen ails a patient is to draw 
        blood, send it to a lab, and often wait days to hear the 
        result. The Mobile Analysis Platform (MAP) point-of-care 
        diagnostic device is a simple, rugged, handheld, battery-
        operated instrument that rapidly identifies a range of 
        infectious diseases. Developed under DARPA's Prophecy program, 
        it enables low-cost and robust molecular diagnostics within 30-
        45 minutes in areas where neither a laboratory nor a secure 
        cold chain is available. And because the device provides 
        instant wireless transmission of test results and location 
        data, it can provide invaluable real-time epidemiological data 
        during outbreaks of fast-moving diseases such as Ebola. DARPA 
        is already engaged in clinical testing of the device with the 
        Naval Health Research Center and the U.S. Military HIV Research 
        Program, and will conduct testing with the Marine Corps 
        Warfighting Laboratory this year during military exercises in 
        the United States and West Africa. In addition, DARPA recently 
        initiated development of a MAP assay for the Zika virus.
  --Revolutionizing Prosthetics (Maturity: Technical Progress).--Over 
        the past year, DARPA has built on previous work in its 
        Revolutionizing Prosthetics program to achieve several new and 
        groundbreaking advances that promise to make a difference for 
        wounded warriors and for countless other people with 
        disabilities. Earlier work developed a sophisticated, modular 
        prosthetic arm that could be easily controlled by the user--a 
        prosthetic that earned FDA approval--and demonstrated the first 
        direct, real-time decoding of neural motor control signals from 
        patients to operate such an arm with near-natural control. A 
        newer focus has been on providing users of prosthetics limbs 
        with a sense of touch by sending tactile information from 
        mechanical fingertips to the brain. In September, DARPA 
        reported its first success in this domain, when a 28-year-old 
        man who had been paralyzed for more than a decade as a result 
        of a spinal cord injury became the first person to ``feel'' 
        physical sensations through a prosthetic hand directly 
        connected to his brain. The advance points to a future in which 
        people living with paralysis or missing limbs will not only be 
        able to manipulate objects by sending signals from their brain 
        to robotic devices, but will also be able to sense precisely 
        what those devices are touching.
  --New Tools to Fight Ebola (Maturity: Technical Progress).--The 
        fiscal year 2015 Consolidated and Further Continuing 
        Appropriations Act provided funds for DARPA to pursue 
        technologies relevant to the Ebola outbreak, leveraging 
        platform capabilities in the ADEPT program that aims to outpace 
        infectious diseases. As a result of that additional support, 
        DARPA was able to achieve a number of milestones in quick 
        order, including completion of a study showing that a novel 
        DNA-based vaccine could protect non-human primates against a 
        lethal Ebola challenge, completion of a Phase I human safety 
        trial for a DNA-based vaccine, identification of highly 
        protective antibodies retrieved from U.S. Ebola survivors, 
        commencement of manufacture of a protective Ebola antibody, and 
        successful demonstration of potentially therapeutic levels of 
        DNA-encoded Ebola antibodies in small animals.
  --Neural Engineering Systems Design (Maturity: New Opportunities).--
        The science fiction dream of linking the brain directly to the 
        outside world has in recent years started becoming a reality--
        initially through the development of implantable medical 
        devices such as deep brain stimulators used today to treat 
        Parkinson's disease and other conditions and, more recently, 
        through work by DARPA and others to develop brain-machine 
        interfaces that allow amputees and people living with paralysis 
        to operate robotic prosthetic arms and hands with their 
        thoughts. Even state-of-the-art brain-machine interfaces, 
        however, have relatively small capacities compared to the 
        enormous computing power of today's digital systems and of the 
        brain itself--a situation that has been likened to two 
        supercomputers trying to talk to each other through an old 300-
        baud modem. DARPA's Neural Engineering System Design (NESD) 
        program stands to dramatically enhance research capabilities in 
        neurotechnology and provide a foundation for new therapies and 
        other capabilities by developing small, implantable systems 
        that can communicate clearly and individually with any of up to 
        one million neurons in a given region of the brain. In addition 
        to that hardware challenge, NESD aims to develop the advanced 
        mathematical and neuro-computation techniques to transcode 
        high-definition sensory information between two contrasting 
        languages--the brain's cortical neuronal representations and 
        the ones and zeros of electronic systems--and then compress and 
        represent those data with minimal loss of fidelity and 
        functionality.
    To build upon the previous initiatives, last year I introduced BBP 
3.0, which emphasized technical excellence and innovation. As mentioned 
in the preceding sections, we must ensure that the U.S. maintains its 
technological edge and superiority. With that in mind, BBP 3.0 is 
focused on anticipating and planning for emerging threats through 
stronger partnerships between the acquisition, requirements, and 
intelligence communities; strengthening cybersecurity throughout the 
product lifecycle; removing barriers to commercial technology 
utilization; improving the return on investments in DOD laboratories; 
and increasing the productivity of corporate Independent Research and 
Development (IR&D), among others. Within the area of workforce 
professionalization, we are working to strengthen organic engineering 
capabilities, ensure our development program leadership is technically 
qualified to manage research and development activities, improve our 
ability to understand and mitigate technical risk, and increase our 
support for Science, Technology, Engineering, and Mathematics (STEM) 
education.
    To address emerging threats and challenges, we are increasing the 
emphasis on being more responsiveness through closer integration of 
requirements, intelligence, and acquisition. We must recognize that 
threats are dynamic and constantly evolving, and we must stay ahead of 
the threat curve. We will increase the use of modular designs, open 
architectures, and competition to spur innovation and ensure that our 
designs can accommodate upgrades that keep us ahead of potential 
adversaries at affordable cost.
    In the area of cybersecurity, we are working to address all 
elements of security throughout the program's lifecycle to include 
design, manufacturing/production, and logistics and sustainment. We are 
also working with industry to address cybersecurity concerns in the 
vast supply chain. While we have made progress in these areas, more 
action is needed.
    Another area where we are making progress is increasing 
productivity in research and development investments that lead to 
product development. This includes bolstering our focus on science and 
technology, advanced components, and early prototypes. The productivity 
of our in-house laboratories, external research efforts funded through 
contracts and grants, and the IR&D conducted as a reimbursable expense 
by private industry, are being assessed and evaluated with a goal of 
maximizing returns while driving down costs.
    We are also working to encourage greater innovation and investments 
in innovation in industry. One area where we are making inroads is 
providing industry with draft requirements earlier, thereby allowing 
industry the opportunity to ask questions, provide feedback, and to 
make well-informed investment decisions. The Department will also 
contract with industry for early concept definition work to better 
inform requirements decisions and analyses of alternatives. We have 
released guidance for defining ``best value'' in monetary terms so that 
industry will have a better understanding of what the government is 
willing to pay for enhanced performance. This knowledge should spur 
innovation by giving industry a solid understanding of the competitive 
advantage available to firms offering innovative ways of achieving 
higher performance at acceptable costs.
    Finally, as aforementioned, we are working to increase 
professionalism in the acquisition workforce, recognizing that a strong 
engineering and scientific acquisition workforce is essential to 
achieving effective innovation and management of development programs. 
Technical risk management is at the core of cutting edge weapon system 
development programs, and the Department cannot simply transfer this 
responsibility to industry. Well-trained and technically qualified 
personnel, with relevant backgrounds in science, engineering, or other 
technical fields, should be managing our development programs. The 
Department cannot be an intelligent customer who insists on high levels 
of performance without developing and maintaining a cadre of 
technically qualified managers, and would like to work with the 
Congress to create greater incentives to recruit, grow, and retain 
professionals with specialized technical qualifications.
                               conclusion
    All of our efforts to increase innovation and improve acquisition 
outcomes are efforts to swim against the current of inefficiencies 
exacerbated by constant sequestration induced budget uncertainty and 
the consequential turmoil it creates. We must restore balance to the 
Department, but we cannot do so until our plans and future budgets are 
better aligned. Until that occurs, modernization investments, 
particularly research and development, will suffer. This means that 
development programs will be stretched out inefficiently and that 
production rates will be well below optimal for many programs. 
Uncertainty about future budget levels makes it impossible to determine 
where the optimal balance between force structure, readiness and 
modernization lies. In this environment the tendency is to hang on to 
assets that the Department may not ultimately be able to afford, and 
where the assets may also be technologically ineffective against our 
adversaries.
    Near-term efforts to shift the Department's focus to address 
emerging near-peer competitors have focused on maturing technologies, 
developing new systems concepts, and preparing to experiment with 
prototype systems that rely on automation and artificial intelligence 
as central elements of a third offset strategy. These efforts establish 
a hedge position for the Department--they allow us to evaluate new 
materiel concepts, develop operational concepts for their deployment, 
increase the maturity of the underlying technology, and provide 
knowledge to reduce the risk of follow-on efforts. Delivering new 
materiel capabilities to the force to maintain our technical edge will 
require investment beyond technology prototyping and near term gap-
fillers. The Nation will face critical investment decisions over the 
next decade. We must increase our investment in conventional 
modernization to deliver, equip and train a relevant force with these 
new capabilities; or, we will be forced to make hard choices about what 
portion of the current force capability and capacity we trade to create 
headroom to afford the new technically advanced capabilities required 
to ensure our competitive military advantage. The resources for this 
new wave of modernization are not reflected in current budget planning.
    The challenge to our Nation's technological superiority is not a 
tomorrow problem--it is here today. The Department remains committed to 
ensure our Military is prepared for any future conflict and we are 
committed to work closely with Congress to stimulate innovative 
capabilities that preserve our technological edge. We are confident 
that the initiatives being pursued under the Department's innovation 
efforts, including the Better Buying Power Initiatives, the strong 
support for the Department's Research and Development Strategy 
reflected in the President's Budget Submission, and DARPA's Strategic 
efforts to help shape our technological future, will position the 
Department for an increasingly competitive national security 
environment.
    The fiscal year 2017 President's Budget request will enable us to 
move toward driving a culture of technical innovation across the 
Department, will help us prepare for an increasingly competitive global 
National Security environment, and will foster a whole-of-department 
coordinated effort across Army, Navy, Air Force, DARPA, and other DOD 
research and engineering organizations.
    Let me close by thanking the committee for its strong interest in 
and support of the Department's efforts as we work to discover, design, 
and deliver the technological capabilities our warfighters will need to 
shape the future.

    Senator Cochran. Thank you very much.
    Mr. Stephen Welby, Secretary of Defense for Research and 
Engineering.
STATEMENT OF STEPHEN WELBY, ASSISTANT SECRETARY OF 
            DEFENSE FOR RESEARCH AND ENGINEERING
    Mr. Welby. Chairman Cochran, Vice Chairman Durbin, and 
distinguished members of this committee, I am pleased to have 
the opportunity to provide testimony on the Department of 
Defense fiscal year 2017 science and technology program and our 
efforts to increase innovative solutions to support the 
warfighter.
    As Mr. Kendall noted, we are at a pivotal moment in history 
where the advanced technical capability and capacity that the 
Nation has relied upon to provide us with unmatched advantage 
on any battlefield is now being challenged, challenged by the 
military technology investments being made by increasingly 
capable and increasingly assertive powers.
    Our department-wide focus on technology innovation seeks to 
identify and invest in unique capabilities to sustain and 
advance the department's military superiority for the 21st 
century.
    As Secretary Carter said in his remarks on the budget at 
the Economic Club of Washington on the 2nd of February, we must 
take the long view and seize the opportunities for the future 
in order to sustain our lead in full spectrum warfighting.
    Today, the department employs over 39,000 scientists and 
engineers in 63 defense laboratories, warfare centers, and 
engineering centers across 22 States, all working every day to 
sustain our ability to support and field critical military 
technology that often has no commercial equivalent.
    Our laboratories have produced important innovations in 
vital defense areas, such as electronic warfare, propulsion, 
and weapons design. And maintaining this unique technical 
expertise is critical for ensuring the department's ability to 
prepare for future threats.
    However, we cannot innovate and bolster our future 
technological superiority from within the department alone. Our 
defense laboratory enterprise touches the broadest range of 
emerging concepts through our deep engagement with academia, 
industry, and our international partners to keep the DOD smart, 
knowledgeable, agile, and responsive in the face of new and 
emerging threats.
    This includes outreach to the vibrant and growing 
commercial innovation community, a community that often does 
not consider applying their emerging technologies to the 
national security sphere.
    This year's 2017 presidential budget request contains $12.5 
billion for science and technology, which includes $2.1 billion 
for basic research and confirms the department's commitment for 
a stable and robust DOD science and technology program that is 
aligned with DOD priorities and supports increased investments 
in those technology development demonstrations required to 
prepare the department for an increasingly competitive global 
security environment.
    The budget submission also continues to ensure that the 
department is developing the innovative technical capabilities 
that are going to inform our future options and sustain our 
U.S. technological superiority.
    Our department's strength is in our people, and we must 
continue to recruit and retain the best and brightest military 
and civilian scientists and engineers, and harness their 
innovative spirits to give our military forces the warfighting 
edge.
    Ultimately, our goal must always be to ensure that our 
soldiers, sailors, airmen, and marines always have the 
scientific knowledge, the decisive technology, the advanced 
systems and tools, the best care and the materiel edge to 
succeed whenever they are called upon. Our research and 
engineering enterprise measures its success in the security of 
our Nation and in the success of our warfighters.
    I would like to thank the committee for your continued 
support of the department's science and technology efforts as 
we work help to help shape that future.
    Thank you.
    Senator Cochran. Thank you very much.
    We now recognize Dr. Arati Prabhakar, director of Defense 
Advanced Research Projects Agency. You may proceed.
STATEMENT OF DR. ARATI PRABHAKAR, DIRECTOR, DEFENSE 
            ADVANCED RESEARCH PROJECTS AGENCY
    Dr. Prabhakar. Thank you both very much. And thanks to the 
members of the subcommittee. It is great to be here today with 
Mr. Kendall and Mr. Welby.
    DARPA is just one part of the department's science and 
technology efforts, so what that means is we work very closely 
with our colleagues across DOD (Department of Defense). We also 
work directly with defense companies and commercial companies, 
with universities and labs of all sorts.
    So we are very much a part of this wide research and 
technology ecosystem. Within that ecosystem, DARPA has one 
particular role, and that is to make the pivotal early 
investments in breakthrough technologies for national security.
    Today, as Mr. Kendall and Mr. Welby have just described, we 
do that work in a shifting global security landscape that is 
filled with technologies moving at a furious pace. I wanted to 
give you one concrete example to bring that to life, and it is 
a very specific example about aircraft self-protection.
    When our aircraft go out today on a mission, they have a 
set of jamming profiles. These are very specific frequencies 
and waveforms that they can transmit to jam the adversary and 
protect themselves. But today when they go out, sometimes they 
will encounter a radar that is transmitting a signal that 
doesn't match anything in their library. And if that happens in 
a time of conflict, it leaves them dangerously unprotected.
    Now today, to upgrade that system takes weeks to months to 
years before we can generate that upgrade and get it out to all 
the aircraft to give them that protection against that one 
specific new threat. That really just reflects the simple fact 
that when those systems were built, we were in a world in which 
the adversary didn't change that often.
    But, of course, that is the problem. Today, that slow-
moving world is gone. And in fact, it is just not that hard 
anymore to modify a radar. In fact, it is the same wireless 
technologies that have brought communications and the Internet 
to billions of people around the world that are now being 
repurposed to modify radars.
    So a program at DARPA is taking a completely new approach 
to this problem.
    Onboard the aircraft, our system looks across the radio 
spectrum. It uses artificial intelligence to learn what the 
adversary radar is doing. And then right there on the spot, it 
generates a specific jamming profile to counter that specific 
threat.
    What all of that means is that our aircraft will be able to 
protect themselves immediately in the battlespace, even when 
the environment around them is changing.
    To me, that is just one small example among many about how 
powerful it can be when you invent new technologies and then 
apply them to solve these kinds of problems.
    There are many, many more examples across the DARPA 
portfolio. We have work that ranges from radical new military 
systems.
    For example, we just christened a ship a couple weeks ago 
that will navigate across the oceans without a single sailor on 
board, and it also includes research that is harnessing 
everything from photons to algorithms to even living cells, to 
create new possibilities that no one could have even imagined 
before today.
    So I would be happy to talk about any of that, but I just 
wanted to conclude my opening remarks this morning by thanking 
you all for the support that you give us, the trust that you 
place in us, along with the support that we get from senior 
leadership in the department. This is why DARPA is able to 
create breakthrough technologies for national security.
    I very much look forward to your questions. Thank you.
    Senator Cochran. Thank you very much.
    Let me start the questioning by asking you, Dr. Prabhakar, 
what processes have you observed that enable technology 
transition? And what are recent examples of successfully 
transitioned technology?
    Dr. Prabhakar. Thank you, Mr. Chairman, for the question.
    Tech transition is always something that requires two 
parties, and those of us who are creating new technologies are 
always working. From the moment we know the technologies might 
work, we are always looking for our partners across the Defense 
Department who can team up with us and start pulling those 
technologies forward.
    The important shift that I would tell you is going on today 
in the department is, in recent years, in times of war, most of 
our transition pull came for applications of our technology 
direct to theater. And we're very proud of some of things that 
we were able to do, tracking insurgent pickup trucks from the 
air, or helping commanders understand stability operations.
    The shift that is happening today in the department, I 
think it is a very healthy one. We're finding today a much 
greater appetite from the services to work with us on the kinds 
of technologies that can counter very sophisticated nation-
state peer adversaries. And I am very much a part of the third 
offset strategy and other strategic directions that are 
starting to move the focus in the department.
    Just to give you one example of that, I mentioned our self-
driving ship in my opening remarks. This is a vessel that has 
the capability to navigate away from the pier by itself. It is 
not joystick controlled. It will have the autonomous capability 
to navigate and to follow the rules of the oceans to avoid 
collision. It is able to have a very long range. It can go many 
tens of thousands of nautical miles.
    That means that we're now going to have a vessel that 
allows the Navy to start thinking about, number one, doing some 
of today's manned missions for a tiny fraction of the operating 
cost. But even more exciting, I think, is when you start 
thinking about the new kinds of missions that you might be able 
to do with teams of these unmanned ships, perhaps working in 
collaboration with manned ships.
    That kind of exploration is the focus of a joint effort 
that we now have with the Office of Naval Research. For the 
next 2 years off the coast of San Diego, we'll be doing a lot 
of the experimentation to see what this amazing new technology 
really can deliver for the Navy.
    Senator Cochran. Senator Durbin.
    Senator Durbin. Thanks, Mr. Chairman.
    I'm going to ask the panel, but I think it's primarily Mr. 
Kendall, with the decline of the Soviet Union, we entered into 
some agreements for a lot of reasons to engage the Russians in 
providing us with technology of value to us. We were trying to 
divert their talent from creating that technology for one of 
our enemies and trying to find some basis for a positive 
relationship between the Russians and the United States.
    One of those dealt with the RD-180, the rocket engine that 
we have used to launch countless numbers of satellites 
successfully into space. Several years ago, it was the opinion 
of both the authorizing and appropriating committee that it was 
time to build an American engine that could compete or replace 
the RD-180. For 2 successive years, we have been appropriating 
the money for the planning and building of that engine.
    There is a war or debate, let's say a war of words, and a 
debate in Congress on the Senate side between the authorizing 
committee and the appropriating committee as to the fate of the 
RD-180 Russian rocket engine. There is at least a belief in the 
authorizing committee that we should stop cold, not buy any 
more of these Russian engines.
    What I have heard from the Department of Defense is that 
would leave the United States vulnerable, vulnerable to two 
possibilities, that we might then be at the mercy of a sole 
source, perhaps SpaceX, or that we would be forced to use 
engines not appropriate for a launch, like the Delta engine, 
and that may be more expensive if we go down that route rather 
than use RD-180 Russian engines while we're in transition. The 
transition, we think, will last 5 years to build a new American 
engine.
    I would like your comments on this state of play, in terms 
of the use of RD-180s in transition, whether 5 years is 
reasonable, and if we fail to use RD-180 engines, what it would 
mean to our security and cost.
    Mr. Kendall. Thanks, Senator Durbin.
    We've had conversations about this in the past. As you 
know, this is a very complicated subject. But the department's 
goals have never changed. We want assured access to space, 
which means we should have two ways to get our satellites into 
orbit, so that if one of them has a major failure and we have a 
big gap in capability, we still have another way to get to 
space.
    So number one is having assured access to space, meaning 
two sources.
    We want competition to keep cost down. We're discovering 
that with the advent of SpaceX into the launch business for the 
department, that it's driving prices down substantially. So 
competition is very important to controlling cost.
    We also want to get off of the RD-180 as quickly as we can. 
We don't want to have that dependency on a Russian source for 
our space launch vehicles.
    The way we would like to move forward, and we think it is 
the best way from a business perspective, is through public and 
private partnerships for launch services.
    The department doesn't buy either rockets or engines. It 
buys transportation services to get our satellites into space.
    What we'd like to do is nontraditional. It's a commercial 
model, basically, which says that we will provide funds to 
close the business case for companies that will then guarantee 
us future launches at a reasonable price.
    That's the nature of the business agreement that we want to 
reach. And the funding that we asked for in 2017 would allow us 
to do that, if it's appropriated.
    The other way we could go is to just buy another engine. We 
could buy an engine for the Atlas rocket, and engines come 
together with rockets. You can't just take an engine and put it 
onto some rocket. It's designed for a specific rocket. We could 
buy a replacement engine for the RD-180 to use on the Atlas 
rocket.
    That would be effectively subsidizing one company and 
providing them with a major investment for that specific 
rocket. We don't think that is the right way to go. We'd like 
to have a more competitive approach.
    There may be a new engine in this, but we'd also like to 
get to launch vehicles that are more cost-effective and 
affordable to us.
    Going forward with something that replaces Atlas with a 
more cost-competitive solution is, we think, the right approach 
in that regard.
    The other alternative that is being talked about is the use 
of Delta, which is a much more expensive rocket, which has some 
capability to launch payloads that are comparable to the 
capabilities of the Atlas system, but at a much higher price, 
$30 million, $40 million, $50 million per launch.
    It is a judgment I would leave to the Congress as to 
whether it is worth the total cost of going to Delta, which 
would be over $1 billion, depending on what estimates you make, 
and there are some estimates that are much higher than that. It 
would be over $1 billion that we would be paying out of our 
budget to avoid essentially buying RD-180s.
    I don't think that is a good tradeoff. I'd rather buy a few 
more RD-180s to get us through the necessary transition period 
until we can have more modern and affordable launch services 
without it.
    Senator Durbin. So I'll just close, because my time is up, 
but I wanted to illustrate here, if I can, by this chart.
    If we don't use Russian engines in transition while we're 
building this American engine, we're forced to use Delta 
engines through the United Launch Alliance. And that, we 
estimate, will cost, as Mr. Kendall said, between $1 billion 
and $2 billion more while we're building this new American 
engine, rather than using the cheaper Russian engine in 
transition.
    What does $2 billion mean? We can replace every Humvee in 
the Marine Corps, increase pay raises for our troops by 2.1 
percent for the next 5 years with the difference that we would 
pay for Delta, keep the A-10 flying for 5 more years, double 
the funding for National Guard equipment by 10 to 20 space 
launches under full and open competition.
    I don't want to continue to subscribe to this Russian 
engine any longer than we have to, but I think it is 
shortsighted for us to just say, as some in the authorizing 
committee have said, ``We're cutting them off cold turkey. 
We're finished with them.''
    If we can use them in transition to an American-made 
engine, we will have real competition between SpaceX and ULA or 
whatever company emerges from that, and then we can have the 
competition in dual-sourcing, which you say is important for 
our security.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    We'll now recognize the distinguished Senator from Montana, 
Mr. Daines.
    Senator Daines. Thank you, Mr. Chairman.
    And thank you for coming today to testify about defense 
innovation and research. Throughout history, our country has 
depended on being one step ahead of our adversaries, and that 
relies heavily on the ability of our equipment and technology 
to be the very best possible. So thank you for the work you're 
doing here.
    Coming from a State like Montana--and by the way, our 
technology industry is rapidly growing--I understand the 
importance of the work you do and encourage you to come out and 
take a look at the work we're doing out in Big Sky Country 
sometime.
    I was told in this very seat 2 months ago by Secretary 
James that the Ground-Based Strategic Deterrent program was on 
track and that it would hit its first milestone by April.
    Well, it's April, and I'm told now there is an issue.
    I have a bicameral group of congressional members ready to 
send a letter expressing their concern. Have the Department of 
Defense and the Air Force dropped the ball on this? When I am 
told something is going to be on track, I expect it to be so.
    And as you know, we've been trying to get this worked out 
over the past week, but I'd like to see the committee get some 
resolution even here today.
    Secretary Kendall, would you have an update on the new 
timeline for the GBSD Milestone A?
    Mr. Kendall. Certainly, Senator.
    I think there's some confusion about the difference between 
what we call a milestone and what we actually do. So let me 
explain what we're actually doing.
    The GBSD program is on track. It's very important that we 
proceed with that, and we do it in a timely way. So we're not 
slowing the program down at all.
    The next thing we will actually do is to release an RFP to 
industry for the first phase, which is risk reduction. That 
will happen very shortly. We're very close to doing that.
    I can call that the Milestone A. My initial idea was to 
wait until I got the bids in. I want to see what the companies 
are going to offer us, in terms of the activities they would do 
in that phase. I had considered shifting Milestone A until just 
before the award of the contracts, as opposed to at this time.
    I am happy to do the Milestone A now, associated with the 
RFP release. The only problem I have with that is a firm legal 
requirement that before I do a Milestone A, I have to have an 
independent cost estimate. So I have to satisfy that legal 
requirement in order to have the Milestone A as a dot on the 
wall of something you did.
    Senator Daines. Right.
    Mr. Kendall. That does not slow down releasing the RFP to 
industry, which is the substance of what we're doing.
    So I'm going to hit Milestone A as soon as I can.
    Senator Daines. Okay. So what's your best forecast today on 
when you would hit Milestone A?
    Mr. Kendall. I think the actual decision of releasing the 
RFP is a couple weeks away. The decision to call it a Milestone 
A and sign a document that says I've hit a Milestone A is 
dependent upon the cost analysis office giving me an 
independent cost estimate. That is a little bit further away.
    Senator Daines. Okay, and what is further away? Just, 
again, are we talking days, weeks, a month?
    Mr. Kendall. I would guess a month or 2.
    Senator Daines. A month or 2, so April, May, by June, we 
would have Milestone A, worst-case scenario?
    Mr. Kendall. I would say, as an estimate, probably by June. 
Again, I don't control that timeline, because of the legal 
requirement that I have to satisfy.
    Senator Daines. Okay. All right. I'll move on.
    I want to talk about radio batteries here for a moment. 
I've spoken on this committee before about the importance of 
lowering the weight that our servicemembers carry. From 
creating more injuries in the long run to decreasing their 
combat effectiveness, I think the weight our soldiers carry is 
a serious threat to the future of warfare, especially when 
soldiers witness Al Qaeda fighters in sneakers with no armor.
    The average infantry marine carries 20 pounds of batteries 
on a 72-hour mission. This is because they carry a battery that 
looks like it can run my pickup. In fact, I have one of these 
batteries here. This weighs nearly 5 pounds. Additionally, 
there's a nonrechargeable version of this battery that costs 
more to dispose of it than even purchase it.
    My question for Dr. Prabhakar and Secretary Welby, what 
programs are you funding in your budget this year to get 
lighter and more cost-effective batteries to soldiers in the 
field? The marines are asking the question.
    Dr. Prabhakar. I will start and then turn over to Mr. 
Welby.
    Senator Daines, I understand the problem, and I completely 
share your frustration. This is an area where DARPA has had 
prior investments many years ago. We don't have current 
activity in the area for a couple of reasons.
    One is because of Advanced Research Projects Agency Energy 
(ARPA-E) in the Energy Department who is investing in battery 
technology, among other areas. And they have been great about 
trying to get some of their advances into DOD.
    The other reason is just a very deep science reason. To 
everyone's mutual frustration, it has been one of the most 
intractable problems of really increasing energy and power 
density in these systems. And in contrast to the electronics 
that seems to get better and better all the time very quickly, 
battery technology has just been on a much more gradual 
improvement curve, so it continues to be a very challenging 
problem.
    Senator Daines. How high of a priority is this?
    Dr. Prabhakar. I think if we saw great ideas in this area 
that we thought could have a revolutionary impact, we would be 
all over it. But we are not really seeing a lot of those.
    Senator Daines. I have to wrap up here. I'm out of time.
    This gets back to looking at what the private sector is 
doing here to solve some of these problems. They are moving 
quickly and more nimbly. Let's make sure we are in sync with 
what is going on with the best technologies.
    For example, I know that there are new barrels that have 
been developed now that are 3 pounds lighter. They are carbon-
wrapped. They dissipate heat fire. They shoot tighter 
groupings, so that they are more accurate and lighter. And 
there is another example.
    In fact, one of those barrel manufacturers is right in 
Montana. We have a bunch of special operations guys that are 
designing these things. They are building them in Montana.
    That is an example where the private sector is moving a 
whole lot faster than our procurement process. So I just 
encourage you to continue to stay engaged here with the 
nimbleness and the speed which innovation is occurring here in 
the country, because lives are at stake here for the U.S. 
military.
    Thank you.
    Senator Cochran. The time of the Senator has expired.
    The distinguished Senator from Montana, Mr. Tester.
    Senator Tester. Thank you, Mr. Chairman. You get us back to 
back.
    I appreciate you guys being here. I appreciate your 
testimony. I do have a follow-up question on the GBSD.
    We are looking at the comprehensive weapon system, flight 
system, ground launch systems, weapons system command-and-
control, the whole ball of wax.
    What Senator Daines did point out is correct. Milestone A, 
which may be no big deal, but it may be a big deal, the 
question is, are we on track to complete this in the way that 
you had in mind to begin with?
    Mr. Kendall. Senator, we are on track. We are approaching 
the program with some sense of urgency. It is early stages, and 
the first substantive work will be some risk reduction work and 
some preliminary design work.
    So we want to get out an RFP, request for proposal, get 
bids in, and have multiple teams do that first phase. So we are 
moving aggressively to make that happen.
    Senator Tester. I appreciate that.
    Are there any deadlines that we should be aware of that you 
are going to be facing in the future?
    Mr. Kendall. I think what we have to do on the GBSD is look 
carefully at some cost tradeoffs. We have, as you know, the big 
affordability issue with recapitalizing the entire triad coming 
up.
    Senator Tester. Right.
    Mr. Kendall. So as we go through this process, particularly 
the preliminary stages over the next year or 2, we are going to 
be looking at ways where we can control cost on the system. It 
is going to be an expensive system by any metric. So that is 
going to be one of the things we look at very carefully.
    It is a system of systems. It is not just the missile. It 
is also the infrastructure, including the command and control. 
So we have to look at all of that.
    Senator Tester. I appreciate that, and I applaud it and 
support what you are doing.
    I want to talk a little bit more parochial than that. I 
want to talk about some helicopters.
    In Malmstrom Air Force Base, we are using Vietnam-era 
helicopters. There are some problems with that. I am sure you 
are fully aware of that.
    It is my understanding that the Air Force is looking into a 
sole-source provider contract to get those helicopters there 
quicker, the Black Hawks. We have been told they will be there 
no later than 2019. In reality, when do you expect them to be 
there?
    Mr. Kendall. I can tell you that the Air Force is looking 
at accelerating that procurement. Our initial plan, and what we 
funded in the budget, was to do this allocation of force as an 
interim step and then to bring in new helicopters a little bit 
later. We have a lot of existing helicopters, obviously, that 
could be applied to that and some existing units.
    We are trying to accelerate that. So we are looking at 
alternative acquisition strategies that would allow us to 
accelerate that and get those replacement helicopters much more 
quickly.
    I haven't made a final decision on that, but I expect it 
very, very soon.
    Senator Tester. You expect a final decision on the definite 
time certain for the arrival?
    Mr. Kendall. A final decision on whether to revise the plan 
we put in the budget and go with something that accelerates 
that plan.
    Senator Tester. Just tell me, and if you don't know, you 
don't know, but if you were to accelerate that plan, what kind 
of acceleration are you talking? Are you talking months? Are 
you talking potentially a year?
    Mr. Kendall. More than a year.
    Senator Tester. More than a year?
    Mr. Kendall. More than a year. We could accelerate from 
currently what is in the budget more than a year.
    If we did a reprogramming and we bought helicopters off of 
an existing multiyear, we could go quite quickly. It takes 
about 2 years to get delivery once you put the orders in, so 
there is that factor. But that would accelerate substantially 
from what we put in the budget.
    Senator Tester. We have a couple guys in this committee 
that will help you accelerate, if you are willing to do that.
    Mr. Kendall. I understand, sir. Thank you.
    Senator Tester. All right, very good.
    I want to talk a little about the ranking member's question 
on the rockets. You said you need two ways to get into space. I 
assume that is the RD-80 and the Delta, those are the two ways?
    Mr. Kendall. The two ways we have in mind right now for 
Atlas class launches is SpaceX with Falcon 9 and Atlas using 
the RD-180. That is the interim solution until we can replace 
the RD-180.
    Then presumably SpaceX would still be in the business and 
then possibly ULA with a follow-on system or somebody else.
    Senator Tester. I got you, and I don't know what kind of 
agreement you have with Russia, but Russia is Russia.
    And you said that if you were to quit cold, it would be a 
problem. If you were to quit that motor cold, it would be a 
problem. The ranking member made that point, too.
    What if it is not our choice? What if it is theirs? Then 
what do we do? What if it is their choice? What if they say no 
more?
    Mr. Kendall. That is a concern. At this point, that has not 
been something that they have threatened us with, as far as I 
know.
    The company involved has a number of engines on order for 
military or commercial purposes, so assuming that that contract 
is fulfilled, I think there would be, in fact, enough engines 
available to get us through this interim period.
    We do have some risks, and one of the reasons we want to 
get off the RD-180 is to remove the risk that they would 
withhold them for us. We need a few years to make that happen.
    Senator Tester. I just hope that we learn from this going 
forward, because I just don't think this is really--the optics 
are horrible. And from a security standpoint, I don't think 
they are much better than horrible. And so I hope we learn from 
this going forward.
    Thank you for your work. I appreciate it. Maybe I will come 
back and ask the other two questions.
    Mr. Kendall. Yes, sir.
    Senator Cochran. The distinguished Senator from Kansas, Mr. 
Moran.
    Senator Moran. Chairman, thank you very much.
    Mr. Secretary, Mr. Welby, my understanding is that Navy 
staff as well as your R&D staff believe that a University 
Affiliated Research Center (UARC) for Wichita State University 
will help leverage their unique capabilities and their talented 
people, and that there is no other entity, and this is me 
speaking now, there is no other entity in the world that has 
the self-qualification authority for materials in DOD 
procurement.
    WSU is, undoubtedly, uniquely qualified to do more work 
that is timely and less costly for the department.
    And I want to make certain that staff recommendations are 
making their way to your desks, that is that the bureaucracy is 
not slowing down a designation process that is supposedly 
designed to expedite the acquisition process.
    Mr. Welby, Wichita State University has the ability to 
develop composite patchwork to fix the urgent structural 
problems with the F-18. If you had the ability to directly 
access those solutions to fix the F-18 and support the 
warfighter in the cockpit, would you use it?
    Mr. Welby. Senator, I am well-aware of the capabilities of 
Wichita State, that include kind of remarkable work on 
nondisruptive tests for composites, the large-scale structural 
test capabilities they have out there.
    To date, I have not received a request from the Navy for 
sponsorship for that work, but should we receive requests, we 
would expeditiously move on it, if we received it.
    Senator Moran. Mr. Secretary, and maybe, Mr. Welby, one of 
the things I want to make certain is that we are not so 
parochial that we have somebody unable or unwilling to make 
that request.
    The Navy visited Wichita State recently and came away with 
a significant positive impression of what the capabilities are.
    Mr. Secretary, it is my understanding that either of your 
offices can formally designate a DOD primary sponsor for each 
UARC to assist in policy and contractual oversight. So I think 
you have the ability to do this. And what I would say is that 
WSU is, in fact, number one among U.S. universities in 
privately funded aeronautical research and development, and 
that as a second source to our bigger contractors and your 
efforts to improve the purchasing capabilities, the efficiency, 
this better buying strategy seems to me to be very compatible 
with getting rid of the middleman out of this process. And the 
goal here is to get you all to make that designation and to 
allow the Department of Defense to acquire the technologies 
that Wichita State has to offer.
    So I am going to submit a question for you, Mr. Secretary, 
for the record, asking a number of details. I would appreciate 
your formal response. I am going to ask you to address cost 
savings within the university R&D labs, what labs are currently 
addressing F-18 readiness, and university partnerships that you 
can designate to be in the best interest of the department 
overall.
    I believe you have the power to move this forward, and I 
would request that you do so. It is in the best interests of 
the department, and most importantly, it is in the best 
interests of our warfighters to do so.
    And finally, Mr. Secretary, I would ask that you and I meet 
personally to have a conversation about this.
    Mr. Kendall. I am happy to do so, Senator.
    [The information follows:]

    I believe the Senator's questions on University Affiliated Research 
Centers and Laboratory Partnerships were answered in the Questions for 
the Record. As I stated during the hearing, I would be happy to meet 
with the Senator to discuss this further. His staff may coordinate with 
the appropriate Department of Defense Legislative Affairs liaison to 
schedule such a conversation.

    Senator Moran. Thank you very much.
    Thank you.
    Senator Cochran. The distinguished Senator from Hawaii, Mr. 
Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    Secretary Kendall, and to both of you, thank you for your 
testimony.
    The Defense Department has made a lot of progress in 
protecting itself from hackers and cyberattacks, but we also 
know that vendors can be vulnerable. They have access to highly 
sensitive information, and we need to take precautions to 
protect that information.
    Secretary Kendall, do you know, among your vendors and 
within our supply chain, prime and subprime contractors, how 
vulnerable they are to cyber breaches?
    Mr. Kendall. We are very concerned about that, and we have 
taken steps to try to provide mandatory standards. We have 
provided mandatory standards to industry to implement to 
provide greater protection.
    Classified information is pretty well-controlled, and the 
standards there exist and are verified. Unclassified 
information, which can still have a great deal of damaging 
effect if it is stolen through computer hacking, is a big 
problem. So is the problem of inserting things into the supply 
chain.
    So we are trying to take steps. We are taking steps to 
increase our security there. We are moving away from a 
voluntary reporting of attack system to a mandatory reporting 
of attack system. And we are moving to much more stringent 
standards for protection of sensitive information.
    Senator Schatz. A couple of questions on that.
    In the procurement process, you now have these minimum 
standards. Is there any thought to scoring according to 
somebody's ability to protect against cyberattacks? In other 
words, to say it is insufficient to meet the minimum standard 
but rather we are going to actually give you a better score in 
the procurement process depending on how good you are at this.
    Mr. Kendall. Generally, we have taken comply with a certain 
acceptable level as our approach. That is something we enforce 
through contracting.
    Senator Schatz. What happens if there is a cyber breach? 
Are they then in violation of the contract, if they don't meet 
the minimum standards, if there is a breach? Or what is the 
process?
    Mr. Kendall. It depends upon the nature of what happened, 
how serious a response is. We have a wide range of responses. 
It would be a breach of contract if they had not put adequate 
defenses in place.
    If they had failed to follow the terms of their contract, 
there are a number of things we can do, all way up to 
terminating the contract, all the way to barring or suspending 
them.
    Senator Schatz. How often does that happen?
    Mr. Kendall. Generally speaking, what we would do in the 
case of a cyber violation that was not dramatic would be just 
to insist that they comply with the contract. And we could 
withhold payments for that, for example, until they did so.
    Senator Schatz. I guess my concern more generally is that 
as the vulnerability increases, because the world is changing, 
that your procurement systems, not because it is anybody's 
fault, you have legacy contracts, you have legacy processes and 
procedures. And my question is, are you done with updating your 
processes, procedures, sort of statutory rule requirements, all 
of that?
    It seems to me that the wheels of government turn a little 
more slowly than we would prefer, in terms of getting up to 
speed. So whether it is about disclosing a cyber breach, or 
whether it is what recourse you have in the case of a breach, I 
am just wondering whether you are all the way to where you want 
to go and whether you need any assistance on the authorizing or 
appropriating side to kind of accelerate.
    The curve in terms of the threat is going like this, and I 
can't imagine that the government is necessarily catching up 
with it.
    Mr. Kendall. It is a work in progress. I think we will 
always be modifying our standards as the threats change and 
emerge.
    I don't think we need legislative help at this point in 
time. I think we can, through our contracting provisions with 
the regulatory authority that we have, put adequate measures in 
place.
    It is going to take some time, because we are doing it as 
we issue new contracts. We are using the contracting vehicles 
to do it.
    But the provisions that we put out recently, the industry 
gave a very, very strong reaction about how difficult it was, 
how difficult it was to flow it down to all their suppliers, 
not just to do it for themselves, and they asked for some more 
time to comply. So we did relax the time constraints a little 
bit, just in the face of the reality of that.
    But this is something we care about a lot, and we are going 
to continue to be aggressive about putting these in place and 
enforcing them.
    Senator Schatz. So I would just like you to keep in touch 
with us about any legislative help that you may need and just 
to be straight with us. This challenge is not your fault, but 
it is impossible for me to imagine that you have all the way 
caught up.
    I understand it is a work in progress. I would like to know 
where we are in that process.
    It also seems to me that the kind of minimum requirements--
``you are cyber secure; therefore, you may apply for a DOD 
contract''--may not suffice in the long run. We may want to 
incentivize private sector companies for being even better than 
the minimum requirements, because that seems to be checking a 
box, and obviously, that is not what we are intending to 
accomplish here.
    Mr. Kendall. We would consider that approach. We look at 
past performance of contractors, seeing how well they have done 
over time as a source selection consideration.
    But I would be happy to have a separate conversation with 
you and brief you in more detail on what we are doing in this 
area.
    Senator Schatz. Thank you.
    Senator Cochran. The time of the Senator has expired.
    The distinguished Senator from Alabama, Mr. Shelby.
    Senator Shelby. Thank you, Mr. Chairman. Mr. Chairman, I 
ask that my opening statement be made part of the record.
    Senator Cochran. Without objection, it is so ordered.
    [The statement follows:]
            Prepared Statement of Senator Richard C. Shelby
    Thank you Mr. Chairman, and I join you in welcoming our esteemed 
panel this morning. Secretary Carter has recently testified concerning 
today's diverse and complex security environment.
    With threats around the world ranging from ISIL and rogue nations 
on one end, to increasingly assertive near-peer competitors on the 
other, it is an important time to focus on innovation and investments 
in our advanced capabilities.
    Innovation of course is nothing new to Alabama, which hosted the 
Advanced Research Projects Agency (ARPA) going back to 1958, managing 
development of Saturn V moon rocket. And the American people understand 
the importance of investing in advanced technologies both to protect 
our men and women in uniform, but also because of the value of 
deterrence.
    Whether our Nation is making investments in high-energy laser 
capabilities, advancing our abilities in hypersonics, or pressing 
improvements to our homeland and deployed missile defense systems, when 
we field superior capabilities, we give our potential adversaries more 
reasons to pursue peace, and our military more options to win any 
fight.
    I look forward to hearing more about the important work from our 
panel today.
    Thank you, Mr. Chairman.

    Senator Shelby. Secretary Kendall, I want to be associated 
with the remarks and questions that Senator Durbin propounded 
just a few minutes ago.
    We have had before this Appropriations Subcommittee on 
Defense testimony by the Secretary of Defense, right here, the 
Secretary of the Air Force, and in a closed session, the 
Director of National Intelligence, all on the same wavelength 
to say that there would be a gap, they believe, if we just stop 
cold and look the other way and not buy the Russian engines.
    We all want to get rid of the dependence to some extent on 
the Russian engine. I think that is a given. But we are dealing 
with more than optics here. We are dealing perhaps with some 
real implications of national security, are we not, sir?
    Mr. Kendall. Yes, we are. I don't know of anyone who is 
specifically advocating immediately stopping. We do have 
authorization for some number of engines. And this committee 
has helped us in that regard also.
    But there are two things at stake here. One is the risk we 
would be running if we stopped immediately. That would be 
substantial. If we stop using, we don't have enough Deltas on 
order right now to meet all our needs. So we would become 
entirely dependent upon the only other certified provider. If 
there was a malfunction, an anomaly, an accident, whatever, 
where we lost that source for a while, we would not have a way 
to get these payloads into space.
    The other thing is the cost. Delta is a much more expensive 
system. The estimates do vary widely. It depends upon how soon 
you start using Deltas instead of Atlases or Falcon 9s, and how 
long you use them and how many you use. So given the 
uncertainty about that, there is a wide range of numbers.
    I have not seen any numbers below $1 billion, in terms of 
total cost. On a per launch basis, it is multiple tens of 
millions. So there is that impact.
    We would have to find the funding. Senator Durbin talked 
about the opportunity costs. But there is a real cost 
associated with changing, which are the things we are currently 
asking for in our budget we would have to stop doing. So it 
would actually be a net loss.
    Senator Shelby. It could be a national security cost plus a 
physical cost, could it not?
    Mr. Kendall. Yes, exactly.
    Senator Shelby. How much, roughly, do we buy from Russia? I 
know we buy more from Russia than just these engines. We buy a 
lot of things from Russia, do we not? Small arms and so forth?
    Mr. Kendall. We are buying Russian equipment. We have often 
through other countries, not directly from Russia, for the 
Afghan military, for example, or the Iraqi military, or for 
some of the groups that we are arming to help with us in Syria.
    So there are some purchases for that, generally not 
directly from Russia but through other countries.
    We did by Mi-17 helicopters for the Afghan military. We 
have committed to stop doing that. We are not buying any more. 
We are looking at the long-term health of that fleet and what 
we want to do about that and considering our options there.
    I am not aware of any major, direct purchases that 
specifically influence the U.S. military. Again, we don't buy 
the engines. We buy the launch services. A private supplier 
buys the engines.
    Senator Shelby. We understand. Indirectly.
    Mr. Kendall. But I am not aware of any other dependency on 
Russia that is similar to the RD-180 dependency.
    Senator Shelby. Let's talk about the replacement engine, 
which this committee has funded the research and development. 
And we are going to continue to do it, even more than was asked 
for, if I recall, Senator Durbin, on this.
    Realistically, where are we today on the development of the 
replacement engine? And in your judgment, which you have had a 
lot of experience and you have two distinguished people here 
with you, what are we talking about in time?
    Mr. Kendall. We're talking about a few more years. The best 
estimate is 2021, possibly 2022. But we have to start.
    And one of problems we have right now is that because this 
has become--I will be blunt about this--fairly politicized, it 
is very difficult to get the Congress to agree across the 
various committees that have jurisdiction.
    Senator Shelby. Yes.
    Mr. Kendall. We have started some contracts on propulsion 
systems, most of which is going toward first stage propulsion. 
But at the end the day, we don't want to buy an engine. We want 
to buy launch services.
    Senator Shelby. That is right.
    Mr. Kendall. So we are trying to, in this budget request in 
2017, get authorization and appropriations that will allow us 
to get on with some public-private partnerships for the launch 
services we need, which will certainly incorporate an engine 
that is not the RD-180. But that is what we are trying to buy, 
and that is I think the most efficient way for us to proceed.
    Senator Shelby. Thank you for your testimony and your 
service.
    Dr. Prabhakar, is that right?
    Dr. Prabhakar. I grew up in Texas, sir, so there is nothing 
you can do to my name that has not been done.
    Senator Shelby. Thank you for your service.
    In your prepared statement, you highlight Chinese and 
Russian investments in sophisticated ballistic and cruise 
missiles, weapons of the future.
    Could you please share with the committee how important it 
is for the United States to also advance our own supersonic 
weapons to deter or compete with potential adversaries? In 
other words, we can't fall behind, can we not?
    Dr. Prabhakar. Absolutely.
    Senator Shelby. Speak to that issue.
    Dr. Prabhakar. I will certainly start and turn it over to 
my colleagues who have a broader perspective.
    Absolutely, and I think what you are highlighting is just 
one dimension of the shifting global environment that we are 
all focused on and is behind a lot of the department's thinking 
in the third offset strategy, for example, a recognition that 
while we had our heads down focused on two ground wars, 
counterinsurgency, counterterrorism for an extended period of 
time, that the rest of the world didn't stand still. In fact, 
they have learned how we fight and have advanced their own 
technologies, have used globally available technologies, have 
become far more formidable future potential adversaries.
    And it is not just missiles. I think that is one important 
part of it, but really the entire collection of capabilities 
that people have today really demand some fresh thinking on our 
side, if we are going to counter that and deter and defeat, if 
necessary, those kinds of advanced capabilities.
    Senator Shelby. The failure of us as a Nation--and a lot of 
it starts here, in this committee, funding--fail to fund the 
advanced technology, which goes to the national security 
system, that could put our Nation at risk down the road, could 
it not?
    We can't defend this Nation with yesterday's weapons when 
you have potential competitors or adversaries moving to the 
next level.
    Dr. Prabhakar. Absolutely.
    Senator Shelby. Secretary Kendall, do you have a comment?
    Mr. Kendall. That is essentially correct. The idea of the 
third offset strategy is to pose a new problem to potential 
adversaries that they haven't solved and will take them some 
time to solve.
    The problem that we posed to potential adversaries in the 
first Gulf War was how to deal with precision munitions, how to 
deal with stealth network systems, wide-area surveillance 
centers.
    People have had a long time to try to figure out how to 
deal with that set of capabilities that we demonstrated so 
dramatically. What they have figured out is that our ability to 
deliver those things depends upon a relatively small number of 
targetable assets: aircraft carriers, forward airbases, 
logistic nodes, et cetera, and satellites.
    So they have built the systems to target those 
capabilities, so we need to respond with the next round, if you 
will, in this two-sided game that we are playing. It is not a 
game; it is very serious.
    That is what the third offset strategy is all about.
    It is a much more difficult thing to do today because of 
the leveling of technology in the world, largely because 
investments in the commercial sector are much more prominent, 
and a lot of that has military applicability, but also because 
of the economic capabilities of some of our potential 
adversaries.
    China is not the China of 20 years ago, in terms of its 
financial capability. It is much more robust, and they are 
investing very strongly in strategic capabilities this way.
    Russia fueled largely by energy income has also been making 
some significant investments.
    So longer term, I would be more concerned about the one 
that is a greater economic power. But setting that aside, both 
are investing in capabilities that are very clearly designed to 
defeat our way of fighting, in particular in our way of 
projecting power. And we need to counter that.
    The third offset strategy is based on the idea that we need 
to be as creative and innovative as we can to find some new 
ideas and new technologies that we can apply and new 
operational concepts that will pose a very difficult problem 
for the people who have been investing in ways to defeat us.
    Senator Shelby. We found out in 1945 that the Germans were, 
overall, much farther advanced than we were, dealing with 
missiles and so forth. We got a treasure trove when we brought 
those scientists here to this country, did we not?
    Mr. Kendall. Sir, that is a very good point, because I 
think we have gotten very comfortable with the idea that we are 
militarily dominant technologically. The idea that we can be 
challenged--Senator Durbin and I have had conversations about 
this in the past--that we can be challenged in terms of 
technological superiority is something that people don't take 
very seriously initially until you show them what is actually 
going on.
    Senator Shelby. That could be a failing, couldn't it?
    Mr. Kendall. Yes.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Cochran. Thank you.
    The distinguished Senator from Illinois, Mr. Durbin.
    Senator Durbin. Thanks, Mr. Chairman.
    I want follow up on this RD-180 conversation, because there 
are some other elements here that we ought to bring out on the 
table.
    SpaceX is largely developing whatever they are developing 
with private sector investment. Now we have ULA, which was a 
combination of Boeing and Lockheed, which received substantial 
subsidies from our government to create the company and to 
develop the engines which we use to launch satellites.
    Now we are talking about the next generation of rocket 
propulsion and engines. And it appears there are two players, 
Blue Origin with Jeff Bezos and Aerojet. My understanding is 
that Blue Origin is either in league with ULA or talking to ULA 
about developing this next engine, next rocket opportunity, 
with private funds.
    But Aerojet, I think you have referred to it, at least 
obliquely, in your comments here, Aerojet is talking about 
developing this new engine with more Federal subsidy, with the 
Air Force being a player. You called it a public-private 
partnership.
    So stepping back from this for a moment and talking about 
reliability of source, which is important, and competition, 
don't we put a finger on the scale if we say that one of the 
competitors is going to be subsidized by the Federal 
Government?
    Mr. Kendall. I wouldn't refer to the contracts we have had 
as subsidies. We paid for something, and we got something 
delivered for that.
    In the case of ULA, what we paid for was their capacity to 
provide launches, and then separately for individual launches 
that they provided us with. So I wouldn't refer to either of 
those as subsidies, per se. We get value for our money.
    What we would do with the public-private partnership----
    Senator Durbin. You can get value for a subsidy, there is 
no question about it.
    Mr. Kendall. Fair enough, Senator. I cede the point.
    Senator Durbin. The point I am making is that we put money 
on the table to keep ULA in business, let them merge and grow.
    Mr. Kendall. Yes.
    What would we do with public-private partnerships is 
contract not with the engine companies but with the launch 
service providers. They would then choose the engines to go 
into whatever they would offer to us as the way they would do 
launches in the future.
    So in the case of ULA, they are not an engine company. They 
would have to select someone. I know they are working with Blue 
Origin. I think they are also working with other companies. 
They have looked at the other engine that you alluded to.
    We would look at their proposal as we would at other 
proposals. If SpaceX wants us to help them fund their 
development to provide more of this capability, we could do 
that. But what we want in return for our money is--and this 
would be done competitively, so we are not just going to hand 
out money. We are going to do this on a competitive basis.
    What we want in return for that investment, if you will, 
are guaranteed launches at a reasonable price in the future, 
because that is ultimately what the government wants.
    Senator Durbin. I follow you, but there are two different 
models, are there not, between Blue Origin and Aerojet?
    Mr. Kendall. There are two different technologies for 
engines. One is a methane-based technology, and the other is 
not.
    Senator Durbin. I am talking about funding. It is my 
understanding that Blue Origin through Mr. Bezos has said we 
are paying whatever it costs to develop this alternative 
delivery. And Aerojet has said we are counting on the Air Force 
stepping in and helping us pay for developing this new 
alternative.
    Mr. Kendall. Those are private investment decisions. And I 
think in the case of Mr. Bezos, I can't speak for him, but I 
believe he is anticipating a very large market for space 
launch, which will recover his investment. I don't think it is 
intended as a gift. He expects to recoup it.
    Senator Durbin. It is not a private market decision if one 
of the competitors says we can only compete with, to use the 
word again, the Air Force subsidy that helps us.
    Mr. Kendall. Again, it is competitive. So cost is a factor 
to us. If we are getting very large private investments on the 
one hand that are reducing the cost of one option, and we are 
not getting them on the other hand, we are going to go with a 
lower cost option in all likelihood.
    Senator Durbin. We are talking about 5 years, 2021, 2022. 
Are you thinking of both Blue Origin and Aerojet when you make 
that calculation?
    Mr. Kendall. They are both possibilities, and one thing I 
think we need to take into account is how much risk we are 
running if we are only funding one option.
    Both of these are relatively early stage development 
programs. There are some events coming up in the next few 
months with Blue Origin which will give us a much better sense 
of how mature that technology is. So that will help us make a 
decision about the best way to go with both public-private 
partnerships.
    Senator Durbin. In the meantime, Senator Shelby and I at 
least share the view, I hope others do as well, keeping the RD-
180 in the mix allows us to have at least the reliability of 
source during this conversation.
    Mr. Kendall. That is right. Until we get to a point where 
we are confident where we are going to go, the most economic 
thing by far for us is to buy a few more RD-180s.
    The cap on that number, we are authorized nine today. We 
have said up to 18. I am hoping that the number would be less 
than that, but we would like to have the authority to buy up to 
18 or use up to 18.
    Senator Durbin. Thank you.
    Senator Cochran. Thank you, Senator.
    The distinguished Senator from Kansas, Mr. Moran.
    Senator Moran. Mr. Chairman, thank you again.
    Mr. Welby, your response to my earlier question was, ``If 
the Navy made the request, you would welcome that.'' That is my 
paraphrase of what you said.
    And, Secretary Kendall, while I was asking my questions, 
you were nodding, which I took as to be in agreement with what 
I was saying. You are nodding again, so that makes me feel more 
comfortable.
    My question is, Mr. Secretary, is this something that you 
can do more than simply wait for the Navy to make this request? 
Do you have the desire to proceed in a more rapid way than what 
has transpired so far?
    Mr. Kendall. Senator, you are catching me flat on this one, 
because I was not aware of this. I can certainly look into it 
and see what the situation is and where it is and talk to the 
Navy about their plans and see what their intentions are. I can 
be more proactive than just wait.
    Senator Moran. I would like you to be more proactive and 
persuasive, assuming that you would confirm that your nodding 
of your head is in agreement with the concept that I am 
promoting.
    Mr. Kendall. I don't know the details of what Wichita State 
has to offer. I am not that familiar with it. Mr. Welby seems 
to be more so.
    But we get a lot of value out of our UARCs. Some of them 
have endured for a long time. Others have not stuck around for 
one reason or the other. But generally speaking, we get a lot 
of value out of them.
    So I would be happy to consider whatever Wichita State is 
considering offering.
    Senator Moran. Thank you, Mr. Secretary.
    In my view, we are in this bureaucratic stage in which 
nothing is happening. Mr. Welby indicates he would welcome a 
request. We need to get the request made. And I also believe 
that you have the ability to proceed without the request.
    So I would like to follow up, as I said with you earlier, 
on this topic.
    Mr. Kendall. We do need a service sponsor who is willing to 
take on working with UARC, getting it set up, and handling some 
of the administrative things and so on. So I do need that sort 
of assistance from a service for this.
    But I have to talk to the Navy about where they are.
    Senator Moran. Thank you very much.
    Let me turn to a different topic. Mr. Secretary, you are 
familiar with the light attack intelligence, surveillance, and 
reconnaissance jet aircraft called the Scorpion. We have had 
conversations about this.
    It is, to me, a prime example again of your efforts at 
better buying power in which industry partners are willing to 
step up to the plate, invest resources in a need for the 
department.
    The good news is that the Scorpion is in their 
accreditation process, which is a critical step.
    My interest now is hearing your perspective on the next 
steps necessary to on-ramp this acquisition process. How do we 
move the Scorpion from accreditation into the ideal acquisition 
process?
    Mr. Kendall. The central ingredient there is a requirement 
from a service for the capability. I know that the Air Force is 
taking a look at it. Right now, it is not in their budget to 
buy Scorpion.
    I have seen the aircraft. I have been in the aircraft. And 
I applaud what Textron did to go fund it and build it on their 
own initiative.
    We did lean forward to help with the accreditation process, 
so that they get a military airworthiness certification, I 
believe.
    So I think that is under way. We have found a way to do 
that.
    The Air Force, I think, is interested, but I don't know 
that they are ready to take the budget, given the budget 
constraints we have, and apply it to that.
    We generally have been taking force structure out as 
opposed to putting it in, and Scorpion, while it has some 
really interesting capabilities for light attack, I don't know 
if that fits into our future plans or not right now.
    I can't do the acquisition without a requirement from the 
service for the capability.
    Senator Moran. Mr. Secretary, thank you. And thank you for 
your help on the accreditation process.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The distinguished Senator from Alabama, Mr. Shelby.
    Senator Shelby. Secretary Kendall, we were talking about 
the engines. Could you just describe or at least--all of you 
are engineers or physicists. But the two engines that Senator 
Durbin, that are in development, that we are talking about, 
what are the properties of those at this point? Is it a 
different methodology to develop? Or what is it? They have to 
be different.
    Mr. Kendall. The basic difference is they use different 
fuels. The Blue Origin uses methane, and I think liquid-oxygen, 
liquid-hydrogen for the competitor.
    Senator Shelby. Give us an example.
    Mr. Kendall. An example of?
    Senator Shelby. The fuel.
    Mr. Kendall. Methane, in the case of Blue Origin, and 
liquid oxygen, I think, hydrogen for the other.
    Senator Shelby. Mr. Welby, you are in this area. What are 
the variants of this?
    Mr. Welby. Senator, they are both comparable engines, 
within the same gross thrust class. They are at comparable 
levels of maturity, at this point. Both teams are pursuing 
development, is my understanding.
    Senator Shelby. From an engineering standpoint, both of 
them would work? Is that correct? Or do you think they would?
    Mr. Welby. Both of them require further maturation, would 
require testing and evaluation. But both of them are reasonable 
approaches to pursue.
    Mr. Kendall. There are design tradeoffs between the two 
choices of fuel. It is not entirely a preference. There is some 
advantage to methane, but it considered a higher risk in some 
areas, I think.
    Steve, is that correct?
    Mr. Welby. I think they are both viable options.
    Mr. Kendall. Yes, they are both viable options, as far as 
we are concerned. But neither one has a proven capability yet.
    Senator Shelby. Secretary Kendall, will you and your staff 
continue to work with this subcommittee on ensuring that the 
department, Secretary of Defense, intelligence, everything, can 
acquire the engines that you say you need for national 
security?
    Mr. Kendall. We are very happy to work with the Congress on 
that. We would really like to get through the current 
disagreements that are happening about the way ahead, so we 
could settle on a path and have some stability and move out on 
it.
    Senator Shelby. We want to get through it, but we don't 
want to jeopardize anything for American security to do that.
    Mr. Kendall. I completely agree with that, Senator.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    This concludes the hearing today for this panel of 
witnesses. We appreciate your contributions to our 
understanding of the work that is being done in the Department 
of Defense, by you and the talents and hard work you bring to 
the challenges.
    We thank you for your service.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Mr. Frank Kendall III
               Questions Submitted by Senator Jerry Moran
                        university lab partners
    Question. Please explain the actual and potential cost-savings that 
result from partnerships and the work conducted by university research 
& development (R&D) labs. Provide the names of such university labs and 
particularly those, if any, currently addressing F-18 fleet readiness.
    Answer. DOD is engaged in broad range, mission-oriented research 
that requires expertise in multiple scientific and technical 
disciplines that can be accessed best at universities. DOD 
collaborations with universities on research and development (R&D) 
provide a breadth and depth of research that DOD cannot accomplish or 
reasonably afford on its own. Several examples of university 
laboratories that conduct R&D for the Department include University 
Affiliated Research Centers (UARCs), such as Johns Hopkins University 
Applied Physics Laboratory (APL), Pennsylvania State University Applied 
Research Laboratory (ARL), and Georgia Tech Research Institute (GTRI). 
APL and ARL are sponsored by the Navy to conduct systems engineering 
and integration-related research and development. GTRI is sponsored by 
the Army to conduct R&D on information technology as well as testing 
and evaluation of new systems. UARCs are organizations affiliated with 
universities or colleges that are established by DOD to accomplish the 
following objectives: maintain essential research, development, and 
engineering of ``core'' capabilities (as defined by their sponsor); 
maintain long-term strategic relationships with their DOD sponsors; and 
operate in the public interest, free from real or perceived conflicts 
of interest. We do not currently have data on any university 
laboratories addressing F/A-18 fleet readiness on behalf of DOD.
    Additionally, Defense Advanced Research Projects Agency (DARPA) 
works with a variety of universities to explore and understand the 
potential of fundamental technologies to advance the state-of-the-art 
for national security. Cost-savings is not the primary emphasis of 
DARPA-sponsored research at universities. DARPA is not addressing F-18 
fleet readiness.
                 university affiliated research center
    Question. Of the university labs that partner with the Department 
of Defense on R&D, which are designated as a University Affiliated 
Research Center (UARC).[?] What are the benefits to a UARC designation?
    Answer. There are 13 DOD-sponsored University Affiliated Research 
Centers (UARCs).
Navy-sponsored UARCs
    Johns Hopkins University Applied Physics Laboratory
    Pennsylvania State University Applied Research Laboratory
    University of Texas Applied Research Laboratory
    University of Washington Applied Physics Laboratory
    University of Hawaii Applied Research Laboratory
Army-sponsored UARCs
    Georgia Tech Research Institute
    Massachusetts Institute of Technology Institute for Soldier 
Nanotechnologies
    University of California Santa Barbara Institute for Collaborative 
Biotechnologies
    University of Southern California Institute for Creative 
Technologies
MDA-sponsored UARC
    Utah State University Space Dynamics Laboratory
NSA-sponsored UARC
    University of Maryland Center for Advanced Study of Language
DASD(Systems Engineering)-sponsored UARC
    Stevens Institute of Technology Systems Engineering Research Center
STRATCOM-sponsored UARC
    University of Nebraska National Strategic Research Institute
    Each DOD component makes its own determination of the strategic 
need for technical research capacity and capability as balanced across 
the Defense Industrial Base, Government laboratories, and academia. The 
Assistant Secretary of Defense for Research and Engineering has the 
authority to approve a request for the establishment of a new UARC if a 
DOD component has submitted a request and provided sufficient 
justification to support the request. DOD may establish a long-term 
strategic relationship with a university for a UARC that will provide 
and maintain engineering, research, and/or development capabilities 
that are essential to the Department's mission and operations. The 
designation of a UARC only approves its establishment. The benefits to 
the DOD component do not occur until after the UARC has been 
established and accrue over time once it begins supporting DOD 
requirements. As the long-term strategic relationship between the DOD 
sponsor and the UARC is built, the UARC gains comprehensive knowledge 
of its DOD sponsors' requirements and increases its ability to be 
responsive to evolving requirements and to provide a quick-response 
capability. This capability and the requirements to operate with 
independence and objectivity, free from real or perceived conflicts of 
interest, are the ultimate benefits for the Department.
    The establishment of a UARC requires a long-term commitment from a 
DOD component of at least $6 million per year for 5 years. The DOD 
component that considers establishing a UARC will have to weigh the 
costs to develop and maintain the long-term strategic relationship 
against the potential benefit. The component may determine that it is 
more advantageous to satisfy its requirements through a contract with 
the university.
                 university affiliated research center
    Question. Is there a university or universities that currently 
partner with the Department of Defense on R&D that yield cost-savings 
and efficiencies that the Office of the Secretary of Defense for R&D 
would recommend a UARC designation?
    Answer. There are numerous universities that perform research for 
DOD. Currently, there is not a request from a DOD component to 
establish a new long-term strategic relationship with a university for 
a University Affiliated Research Center (UARC). A DOD component may be 
able to satisfy its technical requirements through a contract, avoiding 
the cost of establishing and maintaining the long-term strategic 
relationship. The establishment of a UARC requires a long-term 
commitment from a DOD component of at least $6 million per year for 5 
years.
              office of the secretary of defense authority
    Question. If [a] Service or Component does not take the necessary 
steps to seek a partnership with a university lab through a University 
Affiliated Research Center (UARC) designation that yields cost-savings 
and efficiencies for the Department of Defense, does the Office of the 
Secretary of Defense for R&D believe it has the authority to `` . . . 
formally designate a DOD Primary Sponsor for each UARC to assist in 
policy and contractual oversight.'' This excerpt from OSD UARC guidance 
offers leverage to OSD to designate a DOD Primary Sponsor, i.e. a 
Service or Component.
    Answer. While the DOD UARC Management Plan states the Director of 
Defense Research and Engineering, now the Assistant Secretary of 
Defense for Research and Engineering (ASD(R&E)), has the authority to 
designate an appropriate organization as a UARC and a primary sponsor 
for each UARC. This only happens after a DOD component has demonstrated 
a significant need for the creation of a UARC strategic relationship. 
The Department has never approved the establishment of a new UARC 
without a DOD component identifying a significant need for the long-
term strategic relationship and the funding for proposed engineering, 
research, or development requirements. The establishment of a UARC 
requires a long-term commitment from a DOD component of at least $6 
million per year for 5 years. The ASD(R&E) would not want to 
unilaterally approve the establishment of a new UARC without a DOD 
component identifying and justifying a significant need for the long-
term strategic relationship and committing to provide the minimum 
required resources within the 5-year period.
    Question. If the Office of the Secretary of Defense for R&D 
believes it does [have] the authority to designate a Primary Sponsor 
for a university lab that yields cost-savings and efficiencies for the 
Department of Defense and that OSD supports as a UARC, would OSD 
execute that authority? Under what conditions would OSD not execute 
that authority if cost-savings and efficiencies for the Department were 
a result of the UARC designation for such university.
    Answer. The Assistant Secretary of Defense for Research and 
Engineering (ASD(R&E)) has the authority to approve a request for the 
establishment of a new UARC if a DOD component has submitted a request 
and provided sufficient justification to support the request. The 
establishment of a UARC requires a long-term commitment from a DOD 
component of at least $6 million per year for 5 years. The ASD(R&E) 
would only approve a new UARC that has been requested by a DOD 
component with sufficient justification.
                                 ______
                                 
          Questions Submitted by Senator Shelley Moore Capito
                national security technology accelerator
    Question. In 2015, the Department of Defense created the National 
Security Technology Accelerator (NSTA) at the National Defense 
University to provide Technology Domain Awareness to the military and 
support the development of innovators and creative problem solvers who 
are capable of meeting the technology challenges of the future. Just 
recently, the Director of DOD's Strategic Capabilities Office 
reinforced the immediate and pressing need to advance such capability 
when he testified to the Senate Armed Services Committee that the 
eventual winner in any future conflict will be the side whose people 
adapt best to chaos. Put another way--people trump technology. Fully 
supporting this effort to ensure that the U.S. maintains and extends is 
historical military technology-edge, Congress included directive 
language in the fiscal year 2016 National Defense Authorization Act and 
allocated funding in the fiscal year 2016 Omnibus Appropriations bill 
to help the DOD initiate the NSTA.
    What is your vision for NSTA in the next 5 years, and 10 years?
    Answer. DOD leadership is committed to the proposition that 
aggressive action should be taken to guarantee the military-technology 
superiority of the U.S. military in any future conflict. To underwrite 
this objective, the Department has taken steps to expand accesses to 
leading sources of technology in the commercial marketplace by lowering 
barriers to entry and developing new opportunities for civil-military 
industry collaboration. The NSTA is an important part of the 
Department's strategy to engage the commercial marketplace and promote 
civil-military industry integration through the development of a 
national security innovation corps--a network of people who collaborate 
across Government and industry in the execution of projects that 
establish viable, high-tech industry capabilities for defense and 
commercial markets. Over the next 5 years, NSTA will develop and deploy 
education, collaboration, and technology acceleration resources in 
collaboration with a network of national research universities. The 
outcome of this initial phase will be a diverse ecosystem of 
collaborators inside and outside of DOD who successfully execute dozens 
of projects that grow high-tech industry capacity in areas relevant to 
the Nation's defense and overall economic health. By 2026, NSTA will 
scale its activities through additional university and industry 
collaborations in order to develop the national security innovation 
workforce and position DOD at the center of an integrated, high-tech, 
civil-military market.
    Question. Is the DOD on track in developing an fiscal year 2018 
Program Objective Memorandum to support the sustainment of the National 
Security Technology Accelerator (NSTA) effort across the Future Year 
Defense Program (fiscal year 2018-2022)?
    Answer. The Office of the Deputy Assistant Secretary of Defense for 
Manufacturing and Industrial Base Policy and the Joint Staff are 
actively exploring the development of a fiscal year 2018-2022 Program 
Objective Memorandum for the NSTA as part of the overall NSTA 
implementation strategy.
                                 ______
                                 
                Questions Submitted to Mr. Stephen Welby
              Questions Submitted by Senator Thad Cochran
                       high performance computing
    Question. I understand the Department is requesting additional 
funding in the fiscal year 2017 President's Budget for prototyping and 
demonstrations. This emphasis on prototyping weapons before starting 
large acquisition programs is a way to decrease the risk of technology 
not being ready in time and on budget. Often, new supercomputing 
technologies can save development costs by optimizing prototypes or 
simulating real world tests. Should the Department continue to invest 
in virtual prototyping using its high performance computing assets?
    Answer. Yes, virtual prototyping with high-performance computing, 
or HPC, continues to provide a valuable advantage for the Department. 
For example, the Department is realizing significant savings and more 
effective use of wind tunnel tests by using virtual prototypes and HPC. 
Prototyping reduces technical risk and accelerates the adoption of 
transformative capabilities. Virtual prototypes and HPC compound these 
benefits; for example, lowering the cost to build and test prototypes, 
reducing traditional acquisition timelines, and optimizing trade space 
analyses to produce more effective and resilient systems.
    Continued virtual prototyping and HPC investments will allow the 
Department to implement physics-based and discrete event simulation 
based prototyping in the Service engineering and test organizations. 
This capability would help the Department create highly realistic, 
physics-based and network models of defense systems in mission-relevant 
environments. This enables analysis and evaluation of critical 
performance metrics using computational methods, improving current 
prototyping methods and overall acquisition outcomes.
    In addition, these environments help virtual prototyping become 
commonly used in direct support of weapon systems engineering, provide 
invaluable hands-on training, and improve the technical abilities of 
the defense test and engineering workforce. Continued virtual 
prototyping and HPC investment aligns with the Department's long-term 
goals for reducing technical risk and delivering affordable, 
technologically superior warfighting capabilities.
                      engineered resilient systems
    Question. The Department of Defense has prioritized using advanced 
modeling and data analytics, which lead to higher fidelity acquisition 
programs. What are the benefits of using those types of processes?
    Answer. The Department is emphasizing development of Engineered 
Resilient Systems, or ERS, which uses advanced modeling and data 
analytics to allow weapon system acquirers and developers to refine 
system designs in a virtual environment. ERS approaches allow programs 
to refine system designs more responsively and therefore create designs 
that are less sensitive to changes in an adversary's tactics and 
capabilities.
    Use of ERS capabilities allows programs to generate and assess many 
potential designs across a wide range of options. The open tool-
integration architecture allows engineers to examine trades in design 
parameters, system performance and affordability across an extended 
mission space, using visualization tools to identify promising designs 
and key parameters. These new computational and model-based frameworks 
adapt and integrate advanced design and modeling approaches from 
government, industry, and academia.
    Within the DOD acquisition process, these tools and techniques 
foster increased collaboration between government and industry teams in 
research, development, and acquisition, where technical accuracy and 
consistency are provided by the depth of the digital artifact, not by 
the written word. A tool-independent integration framework allows those 
teams to use their own toolsets to create digital artifacts to improve 
the quality of the design and facilitate transition to the next stage 
of the acquisition life cycle. These activities reduce risks resulting 
from different interpretations of the design and allow multiple 
viewpoints to be demonstrated and examined well in advance of 
traditional hardware prototypes. The technical collaboration space, 
whether applied solely within DOD or with industry partners, can help 
understand potential impacts to the warfighter's mission space, to 
include adaptive and reactive threats, changing environmental 
conditions, and emerging military operations.
                                 ______
                                 
               Question Submitted to Dr. Arati Prabhakar
               Question Submitted by Senator Thad Cochran
              darpa vertical take-off and landing aircraft
    Question. Defense Advanced Research Projects Agency created a 
program in early 2013, called X-Plane, to determine if a new type of 
vertical take-off and landing aircraft could be produced that could 
substantially increase speed, useful load, and efficiency. Could you 
talk about ongoing efforts of this particular program and the impact 
this demonstration aircraft will have on advancing breakthroughs in 
aviation technology?
    Answer. The Vertical Take-Off and Landing (VTOL) Experimental 
Aircraft (X-Plane) program continues to pursue multiple configurations 
and subsystem technologies with potential to greatly impact the future 
of vertical flight. Phase I efforts began in November 2013 with Aurora 
Flight Sciences (Manassas, VA), The Boeing Company (Ridley Park, PA), 
Karem Aircraft (Lake Forest, CA), and Sikorsky Aircraft (Stratford, CT) 
and concluded in November 2015 with successful preliminary design 
reviews, which included results from analysis and testing efforts to 
verify the designs for a distributed electric propulsion tilt wing/
canard; tilt duct with embedded body fans; tilt rotor; and tail sitter 
configurations, respectively. Various degrees of testing were performed 
in Phase I to include wind tunnel tests, hardware fabrication and bench 
testing, and a subscale flight test demonstrator to inform design 
decisions and validate computational design tools and simulations. 
Multiple Phase I performers had viable concepts for further 
development, but funding availability led to the selection of a single 
performer to continue on to Phases II/III for the detailed design, 
fabrication, and testing of their 12,000-pound demonstrator aircraft.
    Aurora Flight Sciences was selected for Phases II/III and was 
awarded the 30-month, $89 million contract in March 2016. Aurora is 
continuing to conduct flight tests of its subscale vehicle 
demonstrator, built in Phase I, to verify the flight control laws and 
simulations for their unique distributed electric propulsion 
configuration at Webster Outlying Field in Patuxent River, MD. For 
Phases II/III, the generation and distribution of 3 MW of power to 24 
electric fans on the main wing and canard is one of the core 
technologies of Aurora's configuration. Rolls-Royce LibertyWorks 
(Indianapolis, IN) and Honeywell (Tucson, AZ) are major subcontractors 
for this program to assist in the integration of an AE1107C engine, new 
gearbox, and 3 newly designed MW generators. ThinGap (Ventura, CA) is 
also an active subcontractor for the development and manufacturing of 
the light-weight electric main wing and canard fan motors. Significant 
subsystem tests are planned during the execution of Phase II to 
validate the design of the power generation and distribution system 
while also validating the electric motors prior to flight testing. 
Aurora is working to meet the program's performance metrics while also 
providing a platform to greatly advance the state of the art of 
aviation. Flight testing and verification of the program's objectives 
is planned for 2018. Due to the large number of fans and control 
effectors, the vehicle can be further used to test advanced and 
adaptive flight control laws to optimize performance and efficiencies 
for use on future over-actuated concepts and configurations. The in-
flight validation of electric propulsion at a relevant scale opens up 
the aircraft design space to remove the geometrical constraints of 
mechanical drive systems while also creating a pathway to all-electric 
aircraft.
    The flight test demonstrator will prove numerous technologies that 
have never been flown before. In particular, the aircraft will be the 
first to fly with electric distributed propulsion at the 12,000-pound 
size class and be the first to fly with lightweight 1 MW generators.

                          SUBCOMMITTEE RECESS

    Senator Cochran. The Defense Subcommittee will reconvene on 
Wednesday, April 27, 2016, at 10:30 a.m., to receive testimony 
from the Secretary of Defense and the Chairman of the Joint 
Chiefs of Staff.
    Until then, the subcommittee stands in recess.
    [Whereupon, at 11:42 a.m., Wednesday, April 20, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, April 27.]
</pre></body></html>
